BUDGET EXECUTION IN THE UNITED
STATES MARSHALS SERVICE DURING
  FISCAL YEARS 2002 AND 2003


       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 04-02
            October 2003
                   BUDGET EXECUTION IN THE
                UNITED STATES MARSHALS SERVICE
               DURING FISCAL YEARS 2002 AND 2003

                          EXECUTIVE SUMMARY

       The Office of the Inspector General has completed this audit of the
budget execution process in the United States Marshals Service (USMS) for
fiscal year (FY) 2002 and FY 2003. The primary purpose of the audit was to
determine whether the USMS executed its appropriated budgets for FY 2002
and FY 2003 in accordance with Congressional intent. In addition, during
our review we identified a number of budget execution and
appropriations-related issues that we discuss in this audit, including the age
of the USMS fleet of vehicles.

        Among other duties, the USMS provides security for federal court
facilities; provides secure confinement, transportation, and production of
prisoners for judicial proceedings; apprehends fugitives; and ensures the
long-term safety of protected government witnesses. The current Director
and Deputy Director of the USMS have been in office since 2001. The
USMS’s operations extend across 94 judicial districts and a Headquarters
office in Arlington, Virginia.

      In FY 2002, the USMS received approximately $1.5 billion in
Congressional appropriations. In FY 2003, the USMS received approximately
$879 million in Congressional appropriations. The significant decrease from
FY 2002 to FY 2003 is due to the transfer of funds for detention services
from the USMS to the Office of the Federal Detention Trustee.

       The USMS budget formulation process normally begins 18 months
prior to the start of each fiscal year. Officials from the USMS’s Management
and Budget Division (MBD) stated that their office begins examining the
language included in the House and Senate budget bills even before the final
appropriations are enacted. Throughout the bills’ progress, MBD staff
examines the language as it changes to try to determine approximately how
much funding the USMS may receive, what Congress intends for the use of
the funds, and which USMS programs will receive increases or decreases.
Once the funds are appropriated, MBD staff said they examine the law and
the conference report side-by-side in an effort to identify the Congressional
intent of the appropriation, including whether new positions are associated
with the funding.

     Beginning in FY 2002, the USMS began centralizing certain spending
and budget authority at the USMS Headquarters. For example, until


                                       i
FY 2002, the MBD operated on the assumption of a base budget adjusted
annually to reflect increases. However, for FY 2002 only, the USMS
implemented “zero-based budgeting” under which a new base amount was
calculated for each decision unit and program area. With the base amount
calculated, MBD officials stated that they provide each cost center, including
the 94 districts, with an initial allocation amount. Each cost center must
then create a work plan that details the amount of money the cost center
plans to spend during each quarter of the fiscal year. That work plan is sent
to the MBD for review and approval. The work plan does not include salary
and benefits, because these funds are held and disbursed centrally by the
MBD.

     In addition, districts previously could realign funds between project
codes or object classes without the approval of MBD officials. However,
beginning in FY 2003, the districts were required to notify and obtain
approval from Headquarters whenever they decide to transfer funds between
or among project codes or object classes.

      In conducting this audit, we reviewed the FY 2002 and FY 2003
appropriation laws, and the corresponding House, Senate, and conference
reports. Using the laws and conference reports, we focused our review on
the Congressional spending instructions for FY 2002 and FY 2003. We
reviewed the USMS’s documentation of its allocations and obligations and,
whenever possible, tested judgmental samples of ten percent of the
transaction universes to verify the accuracy of the USMS’s records and to
determine if the charges were allocable to the appropriations bills. We also
reviewed the USMS’s budget execution reports submitted to the Office of
Management and Budget for FY 2002 and FY 2003 to determine whether the
USMS’s total spending in these years was within its total budget authority.

      We conclude that the USMS cannot demonstrate clearly that budgeted
funds are executed in accordance with Congressional instructions. In
FY 2002 the USMS appropriations included 17 spending instructions from
Congress, and for FY 2003, 22 spending instructions. In our judgment, the
USMS could not demonstrate adherence to 7 of the 17 FY 2002 spending
instructions and 9 of the 22 in FY 2003, in the following areas:




                                      ii
      FY 2002
      •    Prisoner Information System
      •    Electronic Surveillance Unit
      •    East Coast/West Coast Task Forces
      •    Courthouse Security Personnel
      •    Prisoner Transportation
      •    Courthouse Security Equipment
      •    Construction

      FY 2003
      •    Courthouse Security Positions
      •    Prisoner Information System
      •    Special Assignments
      •    Positions for Protection of the Judiciary
      •    Positions for High Priority Districts
      •    Annualization of Existing Task Forces
      •    Task Forces for the Heartland
      •    ESU Personnel, Training, and Equipment
      •    Foreign Offices

      Generally, these deficiencies were due to two factors. First, the USMS
does not track changes, obligations, and expenditures to cost centers or
against estimates developed from cost modules. Second, while USMS
records document that funds were allocated for the purpose intended by
Congress, the USMS could not document that the funds actually were
expended for these purposes.

      Similar to other Department of Justice agencies, the USMS uses cost
modules to develop estimates of the total cost for new positions. The cost
module contains line items and allows the USMS to budget for costs
associated with positions, such as salaries, benefits, weaponry, vehicles,
furniture, computers, travel, telephones, postage, and background
investigations. A cost module is based on an average. Although the cost
module may allocate $100,000 for each new position, some new positions
may cost more than that amount and some less. This could be due to any
number of variables in the estimate. For instance, the cost of travel in New
York City is different from the cost of travel in Houston. Furthermore,
personnel in these two cities do not receive the same pay increases.

       The USMS allocates its budget based on the cost modules.
Specifically, the USMS allocates the appropriation directly to the cost centers
where the expense will be incurred. For example, for the appropriation
relating to new positions in a unit, the amount representing vehicles in the
cost module is allocated directly to the Business Services Division (BSD),


                                      iii
training funds to the Training Academy, and computer network funds to the
Information Technology Department.

       However, we found that once the funds are allocated to individual cost
centers, the MBD is unable to track the related expenditures. For instance,
the MBD is unable to determine whether the BSD actually spends all of the
funds for vehicles specifically allocated for a unit. To further complicate the
situation, because the cost module is based on an average, it is not
necessarily improper for the BSD to be spending less than the allocated
amount for the unit’s vehicles. Thus, the USMS’s use of a cost module for
allocation purposes, without expenditure tracking, reduces or eliminates
from the outset the possibility that the USMS will be 100 percent in
compliance with Congressional intent.

      In addition, because the USMS cannot trace corresponding
expenditures, the USMS cannot verify the accuracy of the estimates
formulated by the cost module, on which the USMS bases its allocations to
cost centers. Thus, any errors in the cost module may be perpetuated year
after year. For example, a variation between formulated costs and actual
costs for vehicles for a particular unit required the BSD to compensate for
over $32,000 of expenses for which it had received no funding. While the
actual costs of other vehicles the BSD acquired in FY 2002 may have fallen
short of their estimates and offset any loss to the BSD, under its current
system, the USMS cannot track these expenditures to ensure that the
vehicles line item, as well as the other line items in the cost module, remain
accurate.

       When questioned, MBD officials asserted their support for the use of
the cost modules, which they have been using consistently for the last four
years. MBD officials also stated that they do not have the staff available to
track expenditures related to the cost modules, and that the practice would
be an inefficient use of resources. In our opinion, by allocating funds using
cost modules without being able to track actual expenditures to the cost
module estimates, the USMS could not demonstrate that the funds provided
by Congress were used for the specific purposes identified in the estimates.
Therefore, we conclude that the USMS needs to implement a methodology
for tracking expenditures to cost module estimates in order to demonstrate
to Congress that it is adhering to its spending instructions.

      During our audit, we also reviewed the resources used by the USMS to
maintain its vehicle fleet in accordance with replacement criteria established
by the General Services Administration (GSA), in response to Congressional
interest in this area. We found that the average mileage of the USMS motor
vehicle fleet was about 105,000 miles. According to the GSA criteria, sedans


                                       iv
and station wagons may be replaced every 3 years or 60,000 miles,
whichever comes first; and, 4 to 6 wheel drive motor vehicles and trucks
weighing less than 12,500 pounds may be replaced every 6 years or 40,000
miles, whichever comes first. We determined that 55 percent of the vehicles
in the USMS districts and 37 percent of the vehicles at the USMS
Headquarters exceeded the GSA minimum mileage replacement criteria.
Although the USMS has a vehicle maintenance plan, it does not have a
regular vehicle replacement plan to address needed vehicle upgrades. In
order to reduce the average mileage of the USMS motor vehicle fleet from
the current 105,000 miles and to increase the safety of the staff who use the
vehicles, we recommend that the USMS develop and implement a vehicle
replacement plan.

      Finally, we reviewed the Justice Detainee Information System (JDIS)
as part of our review of the Congressional spending instructions. The JDIS is
an automated prisoner information system. Since FY 1997, Congress has
allocated the USMS up to $4 million annually, or $28 million in total, to
develop the JDIS. However, to date the USMS has allocated the JDIS only
$5.5 million of the available $28 million over the past 7 years. According to
MBD officials, the JDIS remains in the preliminary planning phase.

       While we understand from the appropriations language that the USMS
is not required to obligate the full $4 million to JDIS each fiscal year, we
believe the USMS should clarify the need for and intent of this annual
appropriation to ensure that it is meeting congressional expectations with
respect to development of the JDIS.

     These issues are discussed in detail in the Findings and
Recommendations section of the report.




                                      v
                        BUDGET EXECUTION IN THE
                     UNITED STATES MARSHALS SERVICE
                    DURING FISCAL YEARS 2002 AND 2003

                                    TABLE OF CONTENTS

                                                                                               Page
INTRODUCTION ..................................................................................... 1
FINDINGS AND RECOMMENDATIONS ........................................................ 4
I.    ADHERENCE TO CONGRESSIONAL SPENDING INSTRUCTIONS................ 4
       Use Of Cost Modules....................................................................... 5
       Congressional Spending Instructions................................................. 7
           FY 2002 Budget ....................................................................... 8
           FY 2003 Budget ..................................................................... 18
       USMS Planned Improvements ........................................................ 27
       Conclusion .................................................................................. 27
       Recommendations........................................................................ 30
II.   MOTOR VEHICLE FLEET .................................................................. 31
       Recommendation ......................................................................... 33
OTHER MATTERS.................................................................................. 34
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........................... 38
APPENDIX II - SAMPLE OF A COST MODULE............................................. 39
APPENDIX III - APPROPRIATION AND CONFERENCE REPORT LANGUAGE...... 40
APPENDIX IV - USMS RESPONSE TO THE DRAFT AUDIT REPORT ................. 50
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ACTIONS NECESSARY TO
CLOSE THE REPORT.............................................................................. 60
                             INTRODUCTION

       Congress established the United States Marshals Service (USMS)
through the Judiciary Act of 1789. The mission of the USMS is to protect the
federal courts and ensure the effective operation of the judicial system.
Among other duties, the USMS provides security for federal court facilities;
provides secure confinement, transportation, and production of prisoners for
judicial proceedings; apprehends fugitives; and ensures the long-term safety
of protected government witnesses. The current Director and Deputy
Director of the USMS have been in office since 2001. The USMS’s operations
extend across 94 judicial districts and a Headquarters office in Arlington,
Virginia.

      In FY 2002, the USMS received approximately $1.5 billion in
Congressional appropriations. In FY 2003, the USMS received approximately
$879 million in Congressional appropriations. The significant decrease from
FY 2002 to FY 2003 is due to the transfer of funds for detention services
from the USMS to the Office of the Federal Detention Trustee.

      Officials from the Management and Budget Division (MBD) of the
USMS stated that their office begins examining the language included in the
House and Senate budget bills even before the final appropriations are
enacted. Throughout the bills’ progress, MBD staff examine the language as
it changes to try to determine approximately how much funding the USMS
may receive, what Congress intends as the use of the funds, and whether
programs will receive increases or decreases. Once the funds are
appropriated, MBD staff examines the law and the conference report
side-by-side in an effort to define the Congressional intent of the
appropriation, including whether new positions are associated with the
funding.

      During the budget execution process, the USMS manages allocations,
obligations and expenditures through an accounting system called the
Standardized Tracking, Accounting, and Reporting System (STARS). The
USMS’s Headquarters offices are able to access financial information through
a reader version of STARS called the STARS Web. The districts use the
Financial Management System (FMS) accounting system, and this data is
uploaded into STARS on a daily basis.

Spending Centralization

     During our audit, we found that the USMS centralized certain spending
authority and budget execution under the administration of current Director
Reyna. Prior to FY 2002 under former Director John Marshall, the USMS
planned to decentralize salary funding from Headquarters control to the
districts. The USMS scheduled this decentralization initiative to be phased in
over two years by having fifty percent of the districts participate in FY 2001
and the remaining fifty percent included in FY 2002. However, Director
Reyna discontinued the Salary Decentralization Pilot Project on February 7,
2002.

      Until FY 2002, the MBD operated on the assumption of a base budget,
meaning that the MBD automatically assumed that the base amount of
funding for a particular program would remain the same as the previous
year. However, for FY 2002 only, under instructions from the Director, the
MBD implemented zero-based budgeting, under which a new base amount
was calculated. With a base amount calculated, MBD officials stated that the
MBD staff provide each cost center, including the 94 districts, with an initial
allocation amount. Each cost center must then create a work plan that
details the amount of money the cost center plans to spend during each
quarter of the fiscal year. That work plan is sent to the MBD for review and
approval. The work plan does not include salary and benefits, because these
funds are held and disbursed centrally by the MBD.

       In addition, in FY 2003, based on Director Reyna’s instructions and
because of the timing of the FY 2003 appropriation law, MBD personnel only
loaded 75 percent of the project codes’ annual allocations into the STARS
system, and allowed spending only through the first three quarters of the
fiscal year. MBD officials explained that the Director made this change when
he learned MBD’s practice was to issue the project codes an allocation
amount and then have the project codes create a work plan around that
amount. Instead, in FY 2003, the Director had the project codes create their
full year work plan using only 75 percent of the fiscal year’s funding and
informed the project codes that they may not receive the other 25 percent.
MBD officials noted that this change in practice was simply a way to require
the project codes to add more justification to their budget requests.

      In a related matter, in FY 2003, the Comptroller of the USMS further
centralized budget control by informing all U.S. Marshals and Headquarters
senior staff that any changes to spending plans, including changes to object
classes, quarterly distributions, or programmatic requirements, now have to
be approved by MBD, in advance. In the past, districts could realign funds
between “decision units” without the approval of MBD officials. However, for
FY 2003, the districts are required to notify and obtain approval from
Headquarters whenever they decide to transfer funds between or among or
object classes. The MBD budget analysts monitor the cost centers through
monthly reports to observe spending levels and detect any misuse of funds.


                                     -2-
The budget analysts meet quarterly with supervisory MBD officials to discuss
the monthly reports and any issues or concerns.

      The primary purpose of the audit was to determine whether the USMS
executed its appropriated budgets for FY 2002 and FY 2003 in accordance
with Congressional intent. In addition, during our review we identified a
number of budget execution and appropriations-related issues that we
discuss in this audit, including the age of the USMS fleet of vehicles and the
establishment of a USMS Hazardous Response Unit.1

Our Audit Approach

      We reviewed the FY 2002 and FY 2003 appropriation laws, and the
corresponding House, Senate, and conference reports. Using the laws and
conference reports, we focused our review on the Congressional spending
instructions for FY 2002 and FY 2003. We reviewed the USMS’s
documentation of its allocations and obligations and, whenever possible,
tested samples of ten percent of the transaction universes to verify the
accuracy of the USMS’s records and the relevancy of the transactions to the
appropriations bills. We also reviewed the USMS’s Standard Form 133
Reports on Budget Execution (SF-133) submitted to the Office of
Management and Budget (OMB) for FY 2002 and FY 2003 to determine
whether the USMS’s total spending in these years is within its total budget
authority. In this regard we accepted the amounts reported on the SF-133s
based on our reliance on the results in the Office of the Inspector General
Audit Report Number 03-26, the United States Marshals Service Annual
Financial Statement Audit, Fiscal Year 2002, July 2003, which resulted in an
unqualified opinion.
      Our audit objectives, scope, and methodology appear in Appendix I.
The language of the FY 2002 and FY 2003 appropriation laws and conference
reports that we audited against appears in Appendix III.




       1
         In FY 2002 and FY 2003, Congress directed the USMS to submit a detailed spending
plan identifying how the USMS intended to allocate its appropriations. For further discussion,
see the finding on Adherence to Congressional Spending Instructions.

                                            -3-
                 FINDINGS AND RECOMMENDATIONS

I.   ADHERENCE TO CONGRESSIONAL SPENDING INSTRUCTIONS

     The USMS needs to improve its budget execution process to
     ensure that it is executing its budgets in accordance with
     Congressional spending instructions. In FY 2002, the USMS
     budget included 17 spending instructions, and in FY 2003, 22
     spending instructions. We found that the USMS could not
     demonstrate adherence to 7 of the 17 FY 2002 spending
     instructions and 9 of the 22 in FY 2003. Generally, these
     deficiencies were due to two factors. First, the USMS does not
     track changes, obligations, and expenditures to cost centers or
     against estimates developed from cost modules. Second, the
     USMS records do not document that certain funds were
     expended for the purpose intended by Congress.

     As part of the budget execution process for FY 2002 and FY 2003, the
USMS was directed to submit spending plans to Congress for its
appropriations. According to the FY 2002 Conference Report:

           The Conferees are concerned that, even with a
           reformed budget execution process, a small budget
           shortfall in the Marshals Service at the beginning of
           the year was left unaddressed until well into the
           fourth quarter, despite sharp prompting from the
           Committees on Appropriations. Therefore, the
           conferees direct the Marshals Service to submit,
           through the Justice Management Division, within 30
           days of enactment of this Act, an overall agency
           spending plan for the full amount appropriated for
           fiscal year 2002.

      MBD officials stated that they believe the request for a detailed
spending plan came from the Senate due to its reservations about the
USMS’s cost module process. In addition, MBD officials offered that
Congress was concerned about the USMS’s budget management when the
Appropriations Committees received a $9 million reprogramming request
four days before the end of FY 2001. In this regard, MBD officials stated
that the USMS submitted a request to the Justice Management Division
(JMD) and OMB to reprogram $9 million of funding for rent on August 25,
2001, one month before the end of the fiscal year. However, the request
was not sent to the Hill until the end of the fiscal year.


                                    -4-
       MBD officials also stated that tensions with Congress intensified over
the detailed spending plans that Congress had requested in connection with
the FY 2002 appropriation. The MBD submitted the plan to OMB within 30
days of the passage of the appropriation bill, as required, but OMB did not
immediately forward the plan to Congress. We reviewed documentation and
verified that the USMS submitted its FY 2002 spending plan to OMB on
January 4, 2002, and that OMB forwarded the spending plan to the Hill on
April 10, 2002, 132 days after passage of the appropriations law.

                            Use Of Cost Modules

   Similar to other Department of Justice components, the USMS uses cost
modules to develop estimates of the budgetary resources needed to fund
new positions and to annualize the second-year funding of new positions.
The USMS varies its cost modules based on the series of the new position,
rather than the program offices to which the positions will be assigned. For
example, there are different cost modules for job series 1811 (Criminal
Investigator) and job series 0082 (Deputy Marshal) positions. (For a sample
of a cost module, see Appendix II.)

       The USMS prepares its cost modules based on written guidance
provided by the Department of Justice (DOJ). The cost module is used to
develop an estimate of the total cost for new positions. The cost module
contains line items and allows the USMS to budget for costs associated with
positions, such as salaries, benefits, weapons, vehicles, furniture,
computers, travel, telephones, postage, and background investigations.
Some of the line items in the cost module are based on flat amounts that the
USMS is required to use, while other line items are based on actual past
spending of the USMS. There is no clear rule for why something is, or is not,
included in a cost module. However, items that will be shared among
several positions (i.e. fax machines, copiers) are usually not included.

       The cost module is based on averages. Although the cost module may
allocate $100,000 for each new position, some new positions may cost more
than that amount and some less. This could be due to any number of
variables in the estimate. For instance, the cost of travel in New York City is
different from the cost of travel in Houston. Similarly, personnel in these
two cities do not receive the same pay raise increases. Therefore, the cost
for like positions based on locations could be different from each other.

      If the Congressional appropriation is less than the amount developed
in the cost module, the USMS does not adjust the cost module or the
number of new positions. Instead, the USMS delays the hiring for the new

                                     -5-
positions until as late in the fiscal year as necessary. The DOJ’s cost module
guidelines instruct that only 50 percent of the salaries and benefits funding
needed for a new position be requested for the first year under the theory
that it will take at least six months for the position to be filled. This practice
allows the USMS to purchase the items that accompany the new positions,
such as weaponry, but manage the appropriation by avoiding the full first-
year salaries and benefits expense.

       The USMS allocates its budget based on the cost modules.
Specifically, the USMS allocates the appropriation directly to the cost centers
where the expense will be incurred. For example, for the appropriation
relating to the new positions in the ESU, the amount representing vehicles in
the cost module is allocated directly to the Business Services Division (BSD),
training funds to the Training Academy, and computer network funds to the
Information Technology Services (ITS). However, once the funds are
allocated to the individual cost centers, the MBD is unable to track the
related expenditures. For instance, the MBD is unable to determine whether
the BSD actually spends all of the funds allocated on behalf of the ESU (e.g.
vehicles only for the ESU). To further complicate the situation, because the
cost module is based on an average, it is not necessarily improper for the
BSD to be spending less than the allocated amount on the ESU vehicles.
Thus, the USMS’s use of a cost module for allocation purposes, without
expenditure tracing, reduces or eliminates from the outset the possibility
that the USMS will be 100 percent in compliance with Congressional intent.

       In addition, because the USMS cannot trace corresponding
expenditures, the USMS cannot verify the accuracy of the estimates
formulated by the cost module, on which the USMS bases its allocations to
cost centers. Thus, any errors in the cost module may be perpetuated year
after year. For example, the cost module used for the FY 2002 new
positions in the ESU included $228,384 of funding for nine vehicles, or
$25,376 of funding per vehicle. However, based on BSD records, we
determined that these nine vehicles were acquired for the ESU at a total cost
of $260,861, or $28,985 per vehicle. This variation between formulated
costs and actual costs required the BSD to compensate for over $32,000 of
expenses for which it had received no funding. While the actual costs of
other vehicles the BSD acquired in FY 2002 may have fallen short of their
estimates and offset any loss to the BSD, under its current system, the
USMS cannot track these expenditures to ensure that the vehicles line item,
as well as the other line items in the cost module, remain accurate.

      The USMS used cost modules for the following Congressional spending
instructions:


                                      -6-
      FY 2002
      •    $3,150,000 for ESU personnel and equipment (15 new
           positions);
      •    $5,825,000 for the East Coast/West Coast Task Forces (24 new
           positions); and
      •    $3,625,000 for courthouse security personnel (52 new
           positions).

      FY 2003
      •    $15,800,000 for 106 supervisory deputies;
      •    $5,650,000 for 40 additional positions for protection of the
           judiciary;
      •    $2,259,000 for 18 positions for high priority districts;
      •    $2,916,000 for two new task forces in the Heartland (24 new
           positions); and
      •    $2,750,000 for ESU personnel, training, and equipment (10 new
           positions).

      When questioned, MBD officials asserted their support for the use of
the cost modules, which they have been using consistently for the last four
years. MBD officials also stated that they do not have the staff available to
track expenditures related to the cost modules, and that the practice would
be an inefficient use of resources. In our opinion, by allocating funds using
cost modules without being able to track actual expenditures to the cost
module estimates, the USMS could not demonstrate that the funds provided
by Congress in response to the cost module estimates were used for the
specific purposes identified in the estimates. Therefore, we conclude that
the USMS needs to implement a methodology for tracking expenditures to
cost module estimates in order to demonstrate to Congress that it is
adhering to its spending instructions.

                  Congressional Spending Instructions

      In order to determine whether the USMS executed its budgets for
FY 2002 and FY 2003 in accordance with Congressional spending
instructions, we reviewed the USMS’s allocation and obligation of the funds
specifically mentioned in the appropriation laws and conference reports, and
tested 10 percent of the related transactions whenever possible. In many
cases, the USMS provided worksheets that identified how funds were
allocated to various cost centers. The USMS uses these worksheets to
develop and track its budget allocations, and to record the allocations into
the STARS. Accordingly, we had to rely on the worksheets to trace the


                                    -7-
allocations to the STARS because the USMS does not use an automated
budget system that is integrated with its accounting system. We present the
results of our review by fiscal year.

FY 2002 Budget

      Congress provided funding for the USMS in four appropriations:
1) Salaries and Expenses; 2) Construction; 3) Federal Prisoner Detention;
and 4) Fees and Expenses of Witnesses.2 Furthermore, Congress provided
the USMS with additional funding for FY 2002 under a supplemental
appropriations act. To determine whether the USMS’s total obligations for
FY 2002 were within its total budget authority, we reviewed the SF-133s
that the USMS submitted to the OMB at the end of FY 2002. Based on these
SF-133s, we determined that the USMS had approximately $663 million of
budgetary resources available for Salaries and Expenses in FY 2002. The
USMS obtained these resources from the two FY 2002 appropriation laws
and from funding remaining from prior year appropriations. With this same
SF-133 report, the USMS reported about $656 million of obligations for
Salaries and Expenses in FY 2002. Accordingly, we concluded that the USMS
expended funds for Salaries and Expenses in FY 2002 within its budget
authority. Similarly, based on the USMS’s SF-133 reports submitted to the
OMB at the end of FY 2002, we found that the USMS’s spending on
Construction, Federal Prisoner Detention, and Fees and Expenses of
Witnesses to be within its budget authority. We therefore focused our
review on the specific Congressional spending instructions within the budget
categories.

      We found that the USMS could not demonstrate adherence to the
following 7 of the 17 FY 2002 spending instructions:

      •      Prisoner Information System
      •      Electronic Surveillance Unit
      •      East Coast/West Coast Task Forces
      •      Courthouse Security Personnel
      •      Prisoner Transportation
      •      Courthouse Security Equipment
      •      Construction

Following are the results of our audit of USMS activities against the 17
spending instructions.

      2
          The FY 2002 Appropriation Law is P.L. 107-77. The accompanying Conference
Report is House Report 107-278.



                                          -8-
Salaries and Expenses

      In FY 2002, Congress appropriated $619,429,000 to the USMS for
Salaries and Expenses. Within this funding, Congress included spending
instructions for nine specific items that total $33,407,000. We reviewed the
nine spending instructions to determine if the USMS allocated and obligated
funds in compliance with Congressional intent.

                          Spending Instruction
              $6,000 for official reception
              $4,000,000 for a prisoner information system
              $500,000 for the Special Operations Group
              $583,000 for permanent changes of station
              $3,150,000 for the ESU
              $5,825,000 for two fugitive task forces
              $3,625,000 for courthouse security personnel
              $1,451,000 for prisoner transportation
              $14,267,000 for courthouse security equipment

     Official Reception: Congress instructed that a maximum of $6,000 be
     made available for official reception and representation expenses.
     A MBD official stated that the USMS did not make a specific allocation
     of $6,000 to any cost center for Official Reception, but rather this
     funding comes from funds allocated to the Director’s and Deputy
     Director's office. The obligations against this spending instruction are
     also not segregated from other Director and Deputy Director
     obligations through a project code in STARS. However, officials in the
     Office of the Director and the Finance Office monitor the obligations
     made against this spending instruction to ensure the expenses do not
     exceed the allowed amount. For FY 2002, the USMS provided us with
     a worksheet listing seven transactions for Official Reception expenses
     that totaled $5,969. From these seven transactions, we judgmentally
     selected one transaction for testing and found that this transaction was
     fully supported.

     Prisoner Information System: In FY 2002 Congress provided an
     appropriation for an automated prisoner information system for “which
     not to exceed $4,000,000 shall be available.” A MBD official stated
     that the USMS allocates funds for the Justice Detainee Information
     System (JDIS), which is the system the USMS is developing in
     response to the spending instruction, but only when the fiscal year is
     closed out and available funds are identified. According to the MBD,

                                    -9-
the USMS did not allocate any FY 2002 funding for the JDIS in
FY 2002.

We reviewed the JDIS as part of our review of the Congressional
spending instructions. The JDIS is an automated prisoner information
system. Since FY 1997, Congress has appropriated up to $4 million
annually, or $28 million in total, to develop the JDIS. However, to
date the USMS has allocated the JDIS only $5.5 million of the available
$28 million over the past 7 years. According to MBD officials, the
JDIS remains in the preliminary planning phase.

While we understand from the appropriations language that the USMS
is not required to obligate the full $4 million to JDIS each fiscal year,
we believe the USMS should clarify the need for and intent of this
annual appropriation to ensure that it is meeting congressional
expectations with respect to development of the JDIS.

Special Operations Group: In FY 2002, Congress appropriated a
one-time program increase of $500,000 to the Special Operations
Group (SOG) for training, equipment, and facilities maintenance. We
found that the USMS allocated a total of $1,578,000 to the SOG in
FY 2002, which included $495,000 of the one-time increase. In
addition, we found that the other $5,000 of the increase was
reallocated to the Training Academy, where training funding is
centralized.

Permanent Changes of Station: In FY 2002, Congress appropriated a
one-time increase of $583,000 to the USMS for permanent changes of
station (PCS) to assist with relocating USMS employees from one duty
station to another. We found that the USMS allocated a total of
$918,050 to its Human Resources Division (HRD) for PCS by
combining the $583,000 one-time increase with the PCS base amount
of $335,050. We obtained a worksheet from MBD personnel that listed
the 38 PCS moves the USMS funded in FY 2002; however, the
$918,050 only covered 15 of these moves. The remaining PCS moves
were paid through funding identified from a mid-year review of all or
object classes. Of the 15 moves, we tested 3 for supporting
documentation and found these transactions were fully supported.

Electronic Surveillance Unit: Congress provided an increase of
$3,150,000 to the Electronic Surveillance Unit (ESU) for personnel and
equipment. MBD personnel provided documentation showing that
$1,490,000 of the $3,150,000 was allocated among several cost


                               - 10 -
centers in accordance with the cost module for 15 new positions.
Because of the USMS’s use of the cost module, we could not perform
testing of specific expenditures.

MBD personnel also provided documentation showing an allocation of
$1,660,000 to the ESU for equipment. The ESU prepared a worksheet
listing the 18 equipment purchases it made against the appropriation,
which totaled $1,543,902. From these 18 transactions, we selected 2
transactions for testing and both of these transactions were properly
supported.

East Coast/West Coast Task Forces: Congress provided an increase in
funding of $5,825,000 to the USMS for the creation of dedicated
fugitive task forces on both coasts of the United States. We obtained
a worksheet from the MBD that showed an allocation of $5,882,278, or
$57,278 more than the spending instruction, for establishment of
these fugitive task forces, including the creation of 24 new positions.
Based on the worksheet provided by the MBD, we determined that
these funds were divided in accordance with the cost module,
specifically through transfers to the Investigative Services Division
(ISD), the BSD, the HRD, the ITS, the Training Academy, the Central
Courthouse Management Group (CCMG), the ESU (for radios), and the
MBD (for salaries and benefits). Because of the USMS’s use of the
cost module, we could not perform testing of specific expenditures.

Courthouse Security Personnel: Congress provided an increase in
funding of $3,625,000 to the USMS for courthouse security personnel
at existing and new courthouses. A MBD official provided a worksheet
showing the allocation of the funds to create 52 new positions in 6
districts. This cost module contains 65 line items, including $278,772
for background investigations, $90,272 for desktop computers,
$488,523 for vehicles, and $8,060 for postage. Based on the
worksheet provided by the MBD, we determined that these funds were
divided in accordance with the cost module, specifically through
transfers to the ISD, the BSD, the HRD, the ITS, the Prisoner Services
Division (PSD), the SOG, the Judicial Security Division (JSD), the
Training Academy, the CCMG, the ESU, and the MBD. However,
because of the USMS’s use of the cost module, we could not perform
testing of specific expenditures.

Prisoner Transportation: Congress appropriated an additional
$1,451,000 for prisoner transportation in FY 2002 compared to
FY 2001. A MBD official provided us with a worksheet that shows an


                             - 11 -
allocation of $1,451,000 to the Justice Prisoner and Alien
Transportation System (JPATS) Air Movement account for Salaries and
Expenses. We also obtained a STARS report for this account and were
informed that the $1,451,000 was included in the total budget
authority for this account of $26,054,000, of which the entire amount
was obligated. Although a cost module was not involved with this
spending instruction, we could not test transactions because the USMS
could not distinguish which expenditures were made with the
$1,451,000 funding increase.

Courthouse Security Equipment: The CCMG manages the allocation
for Courthouse Security Equipment. In FY 2002, Congress
appropriated $14,267,000 to the USMS for Courthouse Security
Equipment, including furnishings, relocations, and telephone systems
and cabling. In the conference report, Congress identified 30 specific
courthouse locations and funding distributions for the USMS. Of the
$14,267,000 identified in the spending instructions, the CCMG
obligated $10,423,757 for the specified locations. The CCMG obligated
the total amount of funds allocated in the conference report in only 3
instances, deviating from the conference report instructions for the
following 27 items:




                             - 12 -
    Courthouse
                        Amount                               Difference
     Locations                               Amount
                      Allocated in                              from
    Specified in                           Obligated by
                      Conference                             Conference
    Conference                              the USMS
                         Report                                Report
      Report
Fort Smith, AR              $200,000            -1                  ($200,000)
Denver, CO                $1,090,000          $1,544,957            ($454,957)
Washington, DC               $75,000            -2                   ($75,000)
Jacksonville, FL          $1,065,000            $483,999              $581,001
Dublin, GA                  $432,000            $182,511              $249,489
Moscow, ID                   $50,000             $10,000                $40,000
Bowling Green, KY           $330,000            $230,537                $99,463
Bay City, MI                $175,000             $25,000              $150,000
Detroit, MI                 $450,000            $763,442            ($313,442)
Cape Girardeau, MO           $75,000            -2                   ($75,000)
East St. Louis, MO           $10,000            -2                   ($10,000)
Greenville, MS              $645,000            $121,336              $523,664
Gulfport, MS                $540,000            -1                  ($540,000)
Hattiesburg, MS             $590,000            $193,031              $396,969
Oxford, MS                $1,095,000            $780,384              $314,616
Newark, NJ                  $300,000            $246,875                $53,125
Columbus, OH                $300,000            -2                  ($300,000)
Muskogee, OK                $920,000            $852,555                $67,445
Florence, SC                $321,000            $159,253              $161,747
Spartanburg, SC             $555,000            $163,242              $391,758
Columbia, SC                $195,000            $201,524               ($6,524)
Amarillo, TX                $450,000            -2                  ($450,000)
Houston, TX               $1,063,000          $1,220,000            ($157,000)
Laredo, TX                  $700,000            $810,536            ($110,536)
Waco, TX                    $423,000            $458,640             ($35,640)
Cheyenne, WY                $800,000            $558,172              $241,828
Security Survey3            $180,000            $179,764                   $236
      Source: Data provided by CCMG.
      1
        Project funded by prior year Task Order.
      2
        Project on hold due to construction and/or design delays.
      3
        Security Survey is for all courthouse locations.

      A CCMG official indicated that the Congress was aware of the
changes. However, we found no documentation that disclosed the
formal advisory to the Congress or acknowledgement by the Congress.
Therefore, we cannot with any certainty determine that the USMS
actions complied with the overall intent of the instructions.




                                  - 13 -
            We asked CCMG officials about the differences between the
     conference report allocations and the CCMG’s obligations. A CCMG
     official stated that the dollar figures in the conference report originated
     from estimates developed by the CCMG two years earlier. According
     to this official, many times projects are changed or completed and the
     money is moved to another project. The reasons provided by CCMG
     officials for not allocating any funding to a location specified in the
     conference report were that projects were completed using prior year
     funds or that projects were delayed due to construction and design
     delays. CCMG personnel provided us with a worksheet showing a total
     of $14,266,423 of obligations against the $14,267,000 allocation. Of
     this amount, $10,423,757 of the obligations resulted from instructions
     in the conference report while the other $3,842,665 of obligations
     resulted from the CCMG's decision to realign funding to 29 other
     locations. From the 55 transactions identified for FY 2002, we selected
     6 Courthouse Security Equipment transactions for testing. We found
     that all transactions were properly supported.

Construction

       The CCMG also oversees the USMS’s Construction appropriations. In
FY 2002, Congress appropriated $15 million to the USMS for Construction
and listed specific courthouse locations and funding distributions for the
USMS to follow in the conference report. The Construction appropriation is
considered “no-year” funding, meaning that it is available for spending even
after the fiscal year ends. Of the $15 million identified in the spending
instructions, the CCMG obligated $14,998,701. The CCMG obligated the
funds in accordance with the 33 spending instructions, except for six
locations.

      CCMG officials noted that, generally, the CCMG spends its Construction
appropriation exactly how it is allocated in the conference report. However,
in FY 2002 the $250,000 earmarked for New York City was not used because
this project was still in the preliminary planning phase. Instead, the CCMG
redirected the funding to three other projects: Baltimore, Maryland;
Midland, Texas; and San Francisco, California. In addition, the CCMG made
deviations from the spending instructions for the Hot Springs, Arkansas and
Raleigh, North Carolina locations. CCMG officials noted that, again, these
changes stemmed from the fact that Construction estimates were two years
old. Also, a CCMG official stated that the USMS advised Congress that the
funds would be shifted to the three projects. However, we found no
documentation evidencing that advisory. Therefore, we cannot state with



                                    - 14 -
confidence that the USMS complied with the Conference Report spending
instructions.

      A CCMG official provided us with a worksheet listing a total of
$14,998,701 of obligations through 32 reimbursable work authorizations
(RWA) against the $15,000,000 appropriation. We tested 3 of the 32 RWA's
for supporting documentation and found the RWA’s to be fully supported.

Federal Prisoner Detention

     Congress appropriated approximately $706 million for Federal Prisoner
Detention for FY 2002. It included no specific spending instructions for this
account. With additional funding from prior year recoveries and carryovers,
and other cooperative agreements, the USMS advised us that the total
budget authority for Federal Prisoner Detention by the USMS for FY 2002
was about $743 million.

      The MBD provided us with a worksheet that showed $729 million in
obligations against the $743 million. The obligations consisted mostly of
payments for housing prisoners ($633 million), medical costs for prisoners
($35 million), guards ($10 million), and cooperative agreements
($35 million). We compared the obligations from the worksheet to the
STARS and found no material difference. We also reviewed the reimbursable
agreements the USMS had with the Federal Bureau of Prisons and the
Department of Health and Human Services and verified that the obligations
did not exceed the estimated amounts of the agreements. As noted
previously, we reviewed the obligations in the SF-133 report to OMB for
Federal Prisoner Detention for FY 2002. Based on this report, we
determined that the USMS’s spending for Federal Prisoner Detention in
FY 2002 was within its total budget authority.

Fees and Expenses of Witnesses

      In FY 2002, Congress appropriated $156,145,000 to the USMS for
Fees and Expenses of Witnesses. With this funding, Congress included
spending instructions for three specific items.

     •     $6,000,000 for witness safesites
     •     $1,000,000 for armored vehicles
     •     $5,000,000 for telecommunications equipment

      These appropriations are classified as no-year funds and, therefore are
available until expended. The USMS provided a listing of obligations and


                                   - 15 -
expenditures from FY 2002 for Fees and Expenses of Witnesses. We totaled
these obligations and expenditures, matched them to the spending
instructions, and selected eight transactions from the list to review in detail.
We documented the transactions selected and verified the input of the
obligations for these transactions in STARS, as follows:

      Witness Safesites: Congress instructed that $6 million of funding may
      be made available for witness safesites, including the planning,
      construction, renovation, remodeling, and repair of witness safesites.
      We verified $5,064,118 in total obligations and expenditures for this
      spending instruction for FY 2002.

      Armored Vehicles: Congress instructed that a maximum of $1 million
      may be made available for the purchase and maintenance of armored
      vehicles for transportation of protected witnesses. We verified
      $968,261 in total obligations and expenditures for armored vehicles
      against this spending instruction in FY 2002.

      Telecommunications Equipment: Congress instructed that a maximum
      of $5 million may be made available for secure telecommunications
      equipment, including a secure automated information network to store
      and retrieve the identities and locations of protected witnesses. We
      verified $4,884,656 in total obligations and expenditures against this
      spending instruction in FY 2002.

FY 2002 Supplemental

      In FY 2002, Congress provided supplemental appropriations to the
USMS totaling $19,325,000, to be spent in accordance with the following
instructions.3
            •    $5,000,000 for courthouse security equipment
            •    $4,000,000 for additional protection at trials
            •    $1,200,000 for courthouse security expenses
            •    $9,125,000 for Construction

      Courthouse Security Equipment: In the FY 2002 Supplemental,
      Congress provided an additional $5 million for Courthouse Security
      Equipment, but did not provide specific courthouse locations for the
      funds. As instructed by the conference report, the USMS transferred
      $200,000 of the $5 million to the Eastern District of Virginia to pay for

      3
        The FY 2002 Supplemental appropriations law is P.L. 107-117. The accompanying
Conference Report is House Report 107-350.



                                        - 16 -
the terrorism trials being held there. We obtained a STARS report
from MBD personnel that showed a $200,000 allocation to the Eastern
District of Virginia and a STARS Web report showing $256,800 of
obligations made against this account. We also obtained a STARS Web
report from MBD personnel that showed $4,770,943 of obligations
against the $4.8 million of remaining funding. These obligations were
incurred through 36 RWAs.

Additional Protection at Trials: Congress appropriated $4 million for
additional protection of the federal judiciary in New York City involved
in the World Trade Center bombing and embassy bombing trials. We
obtained a STARS report from MBD personnel that showed a $4 million
allocation being transferred from the Special Assignments account to
the Judicial Security account for the embassy bombing trials. We also
obtained a STARS Web report from MBD personnel that showed
$4,001,126 of obligations under the project code for the embassy
bombing trials.

Courthouse Security Expenses: Congress appropriated $1.2 million for
Courthouse Security Expenses at the Foley Square (New York City)
and Brooklyn federal courthouses. We obtained a STARS report from
MBD personnel, which showed that $700,000 was allocated to the
Southern District of New York, where Foley Square is located, and that
$500,000 was allocated to the Eastern District of New York, where
Brooklyn is located. MBD personnel also provided a STARS Web report
showing $1,187,652 of obligations made against the $1.2 million
spending instruction.

Construction: As part of the supplemental appropriation, Congress
provided the USMS with $9,125,000 for Construction for the highest
priority districts as determined by the USMS. We obtained a STARS
report from a MBD official that showed an allocation of $9,125,000 to
the CCMG. In addition, a CCMG official provided us with a worksheet
that listed the 30 RWAs that the $9,125,000 was divided among. We
tested three of these RWAs for supporting documentation and found
the transactions to be fully supported.




                              - 17 -
FY 2003 Budget

      Congress provided the FY 2003 funding for the USMS in three
appropriations: 1) Salaries and Expenses; 2) Construction; and 3) Fees and
Expenses of Witnesses.4 Beginning in FY 2003, Congress transferred funding
for Federal Prisoner Detention to the Office of the Detention Trustee. As
part of the FY 2003 budget, Congress included a departmentwide rescission,
or cancellation, of 0.65 percent of the total funding in this law. The USMS
implemented this rescission across its agency. Congress also provided the
USMS with funding under the Emergency Wartime Supplemental
Appropriations Act of 2003, bringing total FY 2003 funding to about
$879 million, before the rescission. The President signed the FY 2003
appropriation law on February 20, 2003.

       On May 8, 2003, the USMS issued allocation amounts to the district
offices and issued allocation amounts to the other cost centers six days
later. We compared the amount of time used to execute the FY 2003 budget
to the amount of time used to execute the FY 2002 budget. Specifically, by
reviewing a timeline of the budget events for FY 2002, we determined that a
period of 10 weeks (November 28, 2001, through February 8, 2002) elapsed
from when the President signed the appropriation law to when the USMS
provided the districts and cost centers with the amount of their allocations.
Thereafter, another 3 weeks elapsed before all the allocations were signed
and issued to the districts and cost centers. In comparison, according to the
timeline for FY 2003, a period of 11 weeks (February 20, 2003, through
May 8, 2003) elapsed from when the President signed the FY 2003
appropriation law to when the districts were issued the amounts of their
allocations.

       The MBD is still assessing the funding requirements for the districts
and Headquarters in order to finalize the FY 2003 allocations. In addition,
USMS officials noted that the release of annual allocations at this point in the
fiscal year is exacerbated by the simultaneous mid-year review of funding.
During the mid-year review, the MBD and the Director review the spending
of all districts and cost centers to determine whether funding can be moved
to support “unfunded” programs. Thus, USMS officials are reluctant to issue
funding which could soon be withdrawn. Based on the timelines and
explanations provided by USMS officials, we concluded that any delay in the


      4
         The FY 2003 Appropriation Law is P.L. 108-7. The accompanying Conference Report
is House Report 108-010.



                                         - 18 -
release of the allocations to the costs centers in FY 2003 was due mainly to
the delayed passage of the appropriation law.

      To determine whether the USMS’s total obligations for FY 2003 are
within its FY 2003 total budget authority, we reviewed the SF-133 Report on
Budget Execution reports the USMS submitted to the OMB for the quarter
ended June 30, 2003. The USMS reported total budgetary resources of
about $732 million for Salaries and Expenses in FY 2003. The USMS
obtained these resources from the first FY 2003 appropriation law and from
remaining funding from prior year appropriations. The USMS reported about
$493 million of obligations against the appropriation for Salaries and
Expenses. Based on these numbers, we concluded that the USMS’s
spending for Salaries and Expenses until the end of April 2003 was within its
budget authority. Similarly, based on the USMS’s SF-133 reports submitted
to OMB for the second quarter of FY 2003, we found the USMS’s spending on
Construction and Fees and Expenses of Witnesses to be within its budget
authority.

     Based on our review of the USMS compliance with the Congressional
spending instructions, we found that the USMS could not demonstrate
adherence to 9 of the 22 FY 2003 spending instructions, as follows:

     •     Courthouse Security Positions
     •     Prisoner Information System
     •     Special Assignments
     •     Positions for Protection of the Judiciary
     •     Positions for High Priority Districts
     •     Annualization of Existing Task Forces
     •     Task Forces for the Heartland
     •     ESU Personnel, Training, and Equipment
     •     Foreign Offices

Salaries and Expenses

      In FY 2003, Congress appropriated $680,474,000 to the USMS for
Salaries and Expenses. With this funding, Congress included spending
instructions for 15 specific items. We reviewed the 15 spending instructions
to determine if the USMS allocated and obligated funds in compliance with
Congressional intent.




                                    - 19 -
                      Spending Instruction
     $15,800,000 for courthouse security positions
     $6,000 for official reception
     $4,000,000 for a prisoner information system
     $12,061,000 for courthouse security equipment
     $3,300,000 for ESU base funding
     $1,000,000 for leg/handcuffs
     $10,015,000 for special assignments
     $2,766,000 for the Warrant Information Network
     $5,650,000 for 40 additional positions for protection
     of judiciary
     $2,259,000 for 18 positions for high priority Districts
     $2,268,000 to annualize the two existing task forces
     $2,916,000 for two new task forces in the “Heartland”
     $2,750,000 for ESU personnel, training, & equipment
     $1,715,000 to create a permanent USMS presence in
     Jamaica, Dominican Republic, and Mexico.
     $10,424,000 for motor vehicles

Courthouse Security Positions: Congress provided $15.8 million for
the creation of 106 supervisory Deputy Marshal positions for
courthouse security. We reviewed the worksheet from MBD personnel
that provided the allocations the USMS made for these 106 positions,
totaling $15.8 million. According to a MBD official, the 106 positions
will be divided with 1 position assigned to each of the 94 districts,
except Guam, and 1 position assigned to each of the 13 circuits.
These allocations were based on the USMS’s cost module, but on a
per-position basis. Among the items listed, the cost module included
$182 for random drug tests, $806 for firearms, and $24,126 for a
vehicle per new position. We reviewed the cost module and
determined that the $15.8 million of funds was allocated in accordance
with the cost module, specifically through transfers to the BSD, the
HRD, the ITS, the ISD, the Training Academy, the MBD, and the
individual districts receiving the positions. Because of the USMS’s use
of the cost module, we could not perform testing of specific
expenditures.

Official Reception: In FY 2003, Congress again instructed that a
maximum of $6,000 be made available for official reception and
representation expenses. As noted previously, MBD personnel do not


                             - 20 -
specifically allocate the $6,000 to any cost center, but rather this
funding comes out of the Director and Deputy Director's funds. The
USMS provided us with a worksheet that showed 16 transactions
totaling $4,239 against the $6,000 limit in FY 2003. We tested two of
these transactions for supporting documentation and found that the
transactions were fully supported.

Prisoner Information System: In FY 2003, Congress again provided an
appropriation of no more than $4 million for an automated prisoner
information system. As noted previously, the USMS only allocates
money for the JDIS at the end of each fiscal year. Thus, the USMS has
not yet allocated funding for the JDIS for FY 2003; however, MBD
personnel requested permission from the OMB in July 2003 to move
$1.5 million from the USMS’s FY 1999 and FY 2000 appropriations to
the no-year account for the JDIS.

If the OMB approves the $1.5 million reapportionment, this will result
in the JDIS receiving a total of $5.5 million out of a possible
$28 million since FY 1997. As we previously stated, we believe the
USMS should clarify the need for and intent of this annual
appropriation to ensure that it is meeting congressional expectations
with respect to development of the JDIS.

Courthouse Security Equipment: In FY 2003, Congress appropriated
$12,061,000 to the USMS for Courthouse Security Equipment but did
not list specific courthouse locations or funding distributions. CCMG
staff provided us with a worksheet showing a total of $5,619,276 of
obligations made against this $12,061,000 allocation as of June 2003.
These obligations leave $6,441,724 of the $12,061,000 allocation
unobligated. From the 34 transactions available for FY 2002, we
selected 3 transactions for testing and found these transactions were
fully supported.

ESU Base Funding: In FY 2003, Congress appropriated $3.3 million to
the ESU for recurring costs that the USMS considered as establishing
the program’s base funding. We reviewed the budget worksheets and
determined that a total of $3,146,450 was allocated to the ESU after
deductions for the across-the-board rescission and administrative
expenses. A total of $1,728,071 of this funding has been obligated as
of June 30, 2003. Because this is considered base funding, this
allocation could be used for any ESU expense to include awards;
travel; rental payments; communication, utilities and miscellaneous;
other services; and supplies and equipment.


                              - 21 -
Hand/Leg Cuffs: Congress appropriated $1 million to the USMS for
hand and leg cuffs. On June 23, 2003, the MBD authorized $922,483
of funds for the purchase of hand and leg cuffs. The PSD sought the
requisition for 9,985 sets of full restraints, 500 sets of over-size cuffs,
and 165 sets of over-size leg irons. On June 25, 2003, the MBD also
received a requisition for the purchase of 9,985 locks to accompany
the sets of hand and leg cuffs at a total cost of $70,993. Based on
these requisitions, only $6,523 of the $1 million appropriation remains
unobligated.

Special Assignments: Congress earmarked $10,015,000 of the
Salaries and Expenses appropriation for Special Assignments. MBD
personnel provided a copy of a workplan to show that a total of
$9,949,903 was allocated for special assignments in FY 2003. This
amount reflects the departmentwide rescission of $65,098 from the
$10,015,000 spending instruction. MBD staff also provided a
worksheet showing total obligations of $7,118,588 made against the
$9,949,903 of funding. The MBD did not provide any STARS
documents for these expenditures and could not provide a breakdown
of actual transactions for testing purposes.

Warrant Information Network: Congress instructed that not less than
$2,766,000 be allocated for the Warrant Information Network (WIN)
and subscriptions to various networks and on-line systems. We
obtained a STARS report from MBD staff that showed an allocation of
$2,850,707 to WIN for FY 2003. MBD staff also provided a STARS
report that showed total budget authority of $2,930,527 for this
program and total obligations of $987,032 as of July 8, 2003.

Protection of the Judiciary: Congress provided $5,650,000 for 40
additional personnel and equipment for the protection of the Judiciary
for high threat trials. A MBD official provided a copy of the cost
module for these 40 positions and the locations where the positions
will be assigned. We reviewed the cost module and determined that
MBD personnel allocated $4,273,440 for 40 positions for the protection
of the Judiciary in accordance with the cost module. We also
determined that MBD personnel allocated $1,350,000 for screening
devices, monitoring equipment for courtrooms, crowd and vehicle
barriers, guard and command posts, portable badging stations and
identification cards for visitors, light and heavy duty armored vehicles,
and armored vests. However, because of the USMS’s use of the cost
module, we could not perform testing of specific expenditures.


                               - 22 -
High Priority Districts: Congress appropriated $2,259,000 for 18
positions for those districts with the highest priority needs. A MBD
official provided a copy of the cost module for these 18 positions and
the locations where the positions will be assigned. We reviewed the
cost module and determined that MBD personnel allocated $1,402,776
for 18 positions for the districts that the USMS deemed as high
priority. MBD officials stated that when the budget was originally
formulated, the MBD requested $2,259,000 of funding for 22 Criminal
Investigator positions for the Joint Terrorism Task Force. However,
Congress instead provided a program increase for 18 Deputy Marshals
for high priority districts. Although Deputy Marshal positions cost less
than Criminal Investigator positions, Congress still provided the full
amount of funding the USMS had originally requested. As a result, the
USMS had a surplus of $856,224. A MBD official could not provide
documentation on how this surplus was used but speculated that the
surplus was used to cover a shortfall in funding for the FY 2003 pay
raise. However, because of the USMS’s use of the cost module, we
could not perform testing of specific expenditures.

Annualization of Existing Task Forces: This spending instruction
allocating $2,268,000 was not formally requested by the USMS, but
provided by Congress to annualize the funding for the East Coast and
West Coast Fugitive Task Forces that were created in FY 2002. A MBD
official provided us with a worksheet showing how the $2,268,000 of
funding was allocated among several cost centers. A MBD official also
provided documentation from some of these cost centers to show how
each cost center’s portion of the $2,268,000 was included in that cost
center’s funding. We did not test transactions because expenditures
cannot be traced to the source of funding once the funding is allocated
to various cost centers.

Heartland Task Forces: Congress earmarked $2,916,000 to the USMS
for the creation of two additional task forces in the “Heartland.”
Congress did not define the term Heartland and the USMS officials
chose to create task force locations in Chicago and Atlanta. The USMS
used a cost module to estimate the funds needed for these positions.
We reviewed the worksheets provided to us by MBD personnel and
determined that MBD personnel allocated $2,538,846 for the creation
of two new fugitive task forces with a total of 24 new positions. This
allocation reflects a deduction for the rescission and a transfer of funds
to the Wireless Management Office (WMO) for centralized radio
purchases. We reviewed documentation of the allocation through a


                               - 23 -
STARS report. However, since the USMS used a cost module to
estimate the costs for these new positions, we could not perform
testing of specific expenditures.

ESU: Congress appropriated a $2,750,000 increase to the ESU for
personnel, training, and equipment. Consistent with its estimating of
costs for ESU positions in FY 2002, the USMS used a cost module to
estimate the funds needed in FY 2003 for these positions. We
reviewed the worksheet and STARS report and determined that the
USMS allocated $2,310,976 to the ESU. This allocation reflects the
agency-wide rescission, a transfer of funds to the WMO, and an
allocation to the MBD where salaries and benefits are centralized. In
addition, we obtained from MBD personnel a copy of a memorandum
that discusses the planned breakdown of the spending instruction.
Since the USMS used a cost module to estimate the costs for these
new positions, we could not perform testing of specific expenditures.

Foreign Offices: Congress provided an increase in the USMS’s funding
for the establishment of permanent foreign offices in Jamaica, the
Dominican Republic, and Mexico. We obtained a STARS report from
MBD personnel that showed that the USMS allocated $1,703,853, after
the rescission, for the opening of these foreign offices. MBD staff also
provided a copy of the Investigative Services Division’s (ISD) spending
plan for the foreign offices. Based on a STARS report, ISD has spent
$25,613 of the $1,703,853 allocation on the foreign offices to date.
The expenditures were classified as travel and transportation of
persons and other services; however, MBD officials were unable to
identify through their accounting system the specific transactions for
testing purposes.

Vehicles: In FY 2003, Congress provided a program increase of
$10,424,000 to the USMS for vehicles. We received a STARS report
from MBD staff that showed an allocation, after the rescission, of
$10,356,244 to the BSD for vehicles. The BSD provided a list of the
88 vehicles it has purchased, through 51 transactions, in FY 2003, and
the estimated costs of these transactions. We added the costs
provided and calculated a total of $1,876,639 in FY 2003 obligations as
of June 30, 2003. We tested 5 of these 51 transactions, which
included 5 vehicles, for supporting documentation. These transactions
were fully supported, but only three of the purchases were made with
appropriated funds; the other two purchases were made from lease
savings and proceeds from vehicle auctions. One of the five vehicle
purchases was for a USMS Headquarters office while the other four


                              - 24 -
      purchases were for districts. Of the 88 vehicles purchased, 6 vehicles
      were for the USMS’s Headquarters and 82 vehicles were for the
      districts.

Construction

       In FY 2003, Congress appropriated $15,126,000 to the USMS for
Construction, but did not list specific courthouse locations or funding
distributions for the USMS to follow. We received a STARS report from MBD
staff that showed an allocation, after the rescission, of $15,028,000. CCMG
staff provided us with a total of $14,378,000 of obligations through 40
RWAs, which it has made against the allocation. We tested 4 of the 40
RWAs for supporting documentation and found the transactions to be fully
supported.

Fees and Expense of Witnesses

      In FY 2003, Congress appropriated $175,645,000 of no-year funding
to the USMS for Fees and Expenses of Witnesses. With this funding,
Congress included spending instructions for four specific items.

      •     $19,500,000 for the Witness Security program
      •     $6,000,000 for witness safesites
      •     $1,000,000 for armored vehicles
      •     $5,000,000 for telecommunications equipment

      A USMS official provided us with a listing of obligations and
expenditures for Fees and Expenses of Witnesses in FY 2003. We totaled
these obligations and expenditures, matched them to the spending
instructions, and selected six transactions from the list to review in detail.
We documented the transactions selected and verified the input of the
obligations for these transactions in STARS, as follows:

      Witness Security Program: Congress instructed that a maximum of
      $19.5 million may be made available for the Witness Security
      program. We received a copy of the USMS’s Reimbursable Agreement
      (RA) with JMD for the Witness Security Program. The estimated
      amount listed on the RA is $19.5 million. The MBD estimated that as
      of mid-August 2003 the USMS has obligated about $16.3 million of this
      amount.

      Witness Safesites: Congress instructed that $6 million of funding may
      be made available for witness safesites, including the planning,


                                     - 25 -
       construction, renovation, remodeling, and repair of witness safesites.
       We verified $4,896,422 in total obligations for FY 2003 for this
       spending instruction.

       Armored Vehicles: Congress instructed that a maximum of $1 million
       may be made available for the purchase and maintenance of armored
       vehicles for transportation of protected witnesses. We verified
       $14,067 in total obligations for armored vehicles against this spending
       instruction in as of July 15, 2003.

       Telecommunications Equipment: Congress instructed that a maximum
       of $5 million may be made available for secure telecommunications
       equipment, including a secure automated information network to store
       and retrieve the identities and locations of protected witnesses. We
       verified $2,642,123 in total obligations for this spending instruction as
       of July 15, 2003.

Wartime Supplemental

     In FY 2003, Congress provided additional funding to the USMS through
the Wartime Supplemental Act.5 Through this Act, Congress appropriated
the USMS $8 million for Salaries and Expenses that remains available until
September 30, 2004. The conference report instructed that of this amount:

   •   $5.8 million be allocated to those districts with the highest priority
       needs for protection of the judicial process; and
   •   $2.2 million be allocated to upgrade the Marshals Service secure
       communications capability.

       According to a MBD official, as of July 1, 2003, the USMS had not yet
received the apportionment for this appropriation from OMB. However, MBD
has received the Warrant from Treasury that provides notification that the
funds are available and prepared the apportionment request to OMB. The
MBD has also prepared cost modules for the division of the $5.8 million for
new positions, as well as a breakdown of the locations where the new
positions will be assigned. Similarly, the MBD has also prepared a plan for
how the $2.2 million of secure communications funding will be spent.
Because these funds have not been released, no expenditures have been
made, and we could not perform any testing of transactions.


       5
        The FY 2003 Wartime Supplemental law is P.L. 108-11. The accompanying
Conference Report is House Report 108-076.



                                       - 26 -
                      USMS Planned Improvements

      On September 27, 2002, the USMS Comptroller issued a memorandum
to the USMS Headquarters senior staff and USMS district offices that
incorporated changes to the USMS’s financial management and budget
allocation approach for FY 2003. The memorandum implemented the use of
project codes in the budget execution process, to enhance the USMS’s ability
to trace expenditures to their corresponding budget allocations. An official in
the USMS’s Office of Finance stated that the use of project codes would help
link budget allocations to expenditures that are made in the same cost
center but would not track expenditures across cost centers. For instance,
expenditures incurred directly by ESU for its nine new positions would all
carry the same project code; however, the vehicle expenditures made by the
BSD on behalf of the ESU’s new positions would carry a different project
code. Thus, Congressional spending instructions that relate to a program
area that uses a cost module would still not be traceable to their
corresponding expenditures.

                                 Conclusion

      After reviewing the USMS’s execution of funds in light of Congressional
spending instructions in the appropriation laws and conference reports for
FY 2002 and FY 2003, we conclude that the USMS needs to implement a
budget execution system that tracks changes, obligations, and expenditures
to the budget estimates included in spending instructions. As a result, we
cannot attest to the USMS’s adherence to a total of 16 spending instructions
for FY 2002 and FY 2003.

      With regard to the tracking of changes, obligations, and expenditures
to the budget estimates included in spending instructions, we found that
when the USMS used a cost module for estimating and allocating costs
associated with new positions, the accounting system did not accumulate
costs in parallel fashion. Therefore, we could not attest with any degree of
certainty that funds were expended for the purposes estimated in the
associated cost module. This opinion applies to six specific USMS purposes,
two of which existed in both fiscal years, as follows:

      •   ESU – FY 2002 and FY 2003
      •   East Coast/West Coast Task Forces - FY 2002
      •   Courthouse Security Personnel - FY 2002 and FY 2003
      •   Positions for Protection of the Judiciary – FY 2003
      •   Positions for High Priority Districts - FY 2003
      •   Heartland Task Forces – FY 2003


                                    - 27 -
     Notwithstanding the use of the cost module, we also found other cases
where we could not track expenditures to instructions for a variety of
reasons, as follows:

     • Prisoner Transportation - FY 2002: We could not test transactions
     because the USMS could not identify the specific expenditures against
     the $1.45 million funding increase.

     • Courthouse Security Equipment – FY 2002: The CCMG deviated
     from the conference report instructions for 27 of 30 locations. We
     acknowledged that federal agencies may deviate from spending
     instructions in conference reports, but we also are aware that by doing
     so they create a greater risk for criticism from the Congress. A CCMG
     official indicated that the Congress was aware of the changes.
     However, without some document that discloses this, we could not
     with any certainty determine that the USMS actions complied with the
     overall intent of the instructions.

     • Construction – FY 2002: The CCMG obligated almost all of the
     $15 million as indicated in the spending instructions. The one issue of
     note was that $250,000 originally earmarked for New York City was
     redirected to three other locations because the New York City project
     was still in the planning phase. Again, a CCMG official stated that the
     USMS advised Congress that the funds would be shifted to the three
     projects. However, we had no documentation evidencing the advisory.
     Therefore, as we indicate in Courthouse Security Equipment above,
     without such we cannot attest that the USMS complied with the
     spending instructions relative to the project.

     • Special Assignments – FY 2003: MBD staff provided a worksheet
     showing total obligations of $7.1 million against the $9.9 million of
     funding but could not provide a breakdown of actual transactions for
     testing purposes.

     • Annualization of Existing Task Forces – FY 2003: We did not test
     transactions because expenditures could not be traced to the source of
     funding once the funding was allocated to cost centers.

     • Foreign Offices – FY 2003: The ISD spent about $26,000 of the
     $1.7 million allocation. The expenditures were classified as travel and
     transportation of persons and other services; however, MBD officials



                                   - 28 -
     were unable to identify through their accounting system the specific
     transactions for testing purposes.

      To its credit, in September 2002 the USMS Controller issued a
memorandum to the USMS Headquarters senior staff and USMS District
Offices incorporating changes to the USMS financial management and
budget allocation approach for FY 2003. The memorandum implemented the
use of project codes in the budget execution process to enhance the ability
of the USMS to trace expenditures to the corresponding budget allocations.
However, according to an official in the USMS Office of Finance, the use of
the project codes would track expenditures made from the same cost center,
but not across cost centers. Therefore, the USMS still needs to address the
issue of tracking expenditures across cost centers.

      Lastly, in our judgment the USMS needs to reassess its financial needs
for implementing the JDIS to ensure that it meets Congressional
expectations. Since FY 1997, the USMS had the option to allocate to the
JDIS up to $4 million annually, or $28 million in total. Yet, the USMS has
only provided the JDIS with $4 million as a result of a FY 2001 OMB
reapportionment from FY 1997 funds. The USMS did schedule the JDIS to
receive an additional $1.5 million in FY 2003, but as of our audit fieldwork,
that had not been accomplished.

      As a result of the issues disclosed herein, we cannot provide assurance
to Congress that the USMS adhered to all of its spending instructions for
FY 2002 and FY 2003.




                                   - 29 -
Recommendations

     We recommend that the Director of the USMS:

1.   Develop a budget execution system that tracks changes, obligations,
     and expenditures to the budget estimates included in spending
     instructions.

2.   Reexamine its annual Congressional request of $4 million for JDIS, in
     light of the USMS’s record of not allocating more than $5.5 million of
     the available $28 million of these funds over the past seven years.




                                   - 30 -
II.   MOTOR VEHICLE FLEET

      We determined that 55 percent of the vehicles in the districts
      and 37 percent of the vehicles at the USMS’s Headquarters
      exceeded the GSA’s minimum mileage replacement criteria. The
      average mileage of the USMS motor vehicle fleet is 105,000
      miles. Although the USMS has a vehicle maintenance plan, it
      does not have a regular vehicle replacement plan to address the
      needed vehicle upgrades. In order to reduce the average
      mileage of the USMS motor vehicle fleet from the current
      105,000 miles, the USMS needs to develop and implement a
      vehicle replacement plan.

      According to a BSD summary report, the USMS spent approximately
$15.9 million during FY 2002 to lease and purchase vehicles. The amount
included about $4.8 million from an end-of-year realignment of funds (also
see Other Matters), but did not include a program increase for replacement
of vehicles. In addition to acquiring vehicles for use by operational units,
during FY 2002 the USMS also purchased two new sedans for the Director
and Deputy Director at a cost of $56,268. These vehicles augment a utility
vehicle with secure communications equipment, also purchased in FY 2002.
According to the Headquarters’ vehicle listing provided by the BSD, these
vehicles are assigned to USMS Headquarters. There are no vehicles in the
USMS Motor Pool officially designated for use by specific offices or persons.
However, only the Director, the Deputy Director or their designee, can use
this utility vehicle because of the secure communications equipment in the
vehicle. The Director’s Office provided a brief narrative showing when the
Suburban was received, its current mileage, and the ways in which the
vehicle is used.

       In FY 2003, Congress provided the USMS with a one-time increase of
$10.4 million to purchase motor vehicles. When providing this increase, the
Senate expressed concerns that the USMS’s “approach to fleet management
is ‘run to failure’.” The BSD provided us with a prioritized list of their
planned purchases using the $10.4 million.

       We received a STARS report from MBD staff that showed an allocation,
after the rescission, of about $10.4 million to the BSD for vehicles. The BSD
provided a list of 88 vehicles the USMS purchased for approximately $1.9
million as of June 30, 2003. We reviewed the transactions for five of the
vehicles and found that they were supported. However, only three of the
purchases were made with appropriated funds. The other two purchases
were made from lease savings and proceeds from vehicle auctions. One of


                                    - 31 -
the five vehicle purchases was for a USMS Headquarters office while the
other four purchases were for districts. Of the 88 vehicles purchased, 6
vehicles were for the USMS’s Headquarters and 82 vehicles were for the
districts.

      The GSA minimum mileage replacement criteria for motor vehicles
provides that an agency may replace sedans and station wagons at 60,000
miles or three years of age, whichever comes first. Similarly, an agency
may replace 4 to 6 wheel drive motor vehicles and trucks weighing less than
12,500 pounds at 40,000 miles or at 6 years of age, whichever comes first.
We found that the mileage for about 55 percent of the USMS district fleet
vehicles and 37 percent of the USMS headquarters exceeded the GSA
mileage replacement criteria. USMS officials advised us that the USMS does
not have a vehicle replacement plan in place. According to an official in the
BSD, creating a regular replacement plan is difficult because in the past the
USMS has not been able to obtain the funding necessary to replace the
high-mileage vehicles in its fleet. This BSD official stated that the current
average mileage of the vehicles in the USMS’s motor vehicle fleet was
105,000 miles. According to the same official, to reduce the average
mileage of the vehicles in the USMS’s motor vehicle fleet from 105,000 miles
to 80,000 miles, the USMS would need to receive at least $10 million per
year for the next 4 to 5 fiscal years. Notwithstanding the $10.4 million in
FY 2003, USMS officials indicated that the lack of a replacement plan is due
to the USMS not being able to obtain the funding necessary to replace the
higher-mileage vehicles.

       We assessed whether the USMS motor vehicle fleet was adequately
funded and managed. We reviewed vehicle logs to identify the universe of
vehicles, their current mileage, and their assigned locations (district or
headquarters). Not including forfeited and transferred-in vehicles, 2,186
vehicles were assigned to the districts and 54 vehicles were assigned to
USMS Headquarters. Fifty-five percent (1,210) of the 2,186 vehicles in the
districts and 37 percent (20) of the 54 vehicles at USMS Headquarters
exceeded the GSA minimum mileage replacement criteria. Of the 2,240
vehicles, which are in the USMS’s motor vehicle fleet, 1,799 were purchased
vehicles and 441 were leased vehicles. Of the 1,230 vehicles in the USMS’s
motor vehicle fleet that exceeded GSA’s minimum mileage standards, 1,081
are purchased vehicles and 149 are leased vehicles. Thus, about 60 percent
of the USMS’s purchased vehicles and about 34 percent of the USMS’s
leased vehicles exceed the GSA’s minimum mileage criteria.

    Absent a regular vehicle replacement plan, many of the vehicles in the
USMS’s motor vehicle fleet pose a possible safety threat to USMS


                                   - 32 -
employees. In addition, the maintenance requirements of higher-mileage
vehicles may result in a reduction in the number of vehicles in service.
Further, the lack of a regular vehicle replacement schedule affects the
USMS’s ability to budget effectively for vehicle replacement and may result
in the costs of replacing vehicles to be bunched within one or two fiscal
years. The USMS needs to develop and implement a vehicle replacement
plan to ensure the continual use of reliable and safe vehicles.

Recommendation

     We recommend that the Director of the USMS:

3.   Develop and implement a formal vehicle replacement policy that
     includes replacement criteria such as vehicle age and mileage.




                                   - 33 -
                              OTHER MATTERS


      As part of our review, we examined the USMS’s establishment of the
Hazardous Response Unit, its opening of foreign offices, and its
reprogramming activities in FY’s 2002-2003 in light of Congressional interest
in these issues.

Hazardous Response Unit

      In a memorandum issued June 30, 1999, the Acting Director of the
USMS established the Chemical/Biological Office of Preparedness (CBOP)
under the Judicial Security Division (JSD). The USMS created the CBOP to
coordinate policies and related programs concerning biological and chemical
events. The CBOP was responsible for: 1) developing chemical and
biological policy; 2) training; 3) conducting exercises; 4) tracking events;
5) identifying required equipment; 6) participating in interagency activities;
and 7) establishing a liaison with the Federal Bureau of Investigation and
other federal agencies. At that time, only two people were assigned to the
CBOP and their work for the unit was a collateral duty assignment.

       According to a USMS official, after the September 11, 2001, terrorist
attacks, the CBOP began receiving many questions from judges and United
States Attorney's Offices concerning chemical and biological threats. In
response to this increased demand, USMS decided to place an emphasis on
staffing and training the unit. As part of this emphasis, the USMS
transferred the CBOP from JSD to the District Affairs division in the Office of
the Director and reclassified the two collateral duty positions as permanent.
In addition, on July 8, 2002, the CBOP announced position openings for 12
collateral duty personnel, and changed the name of the unit to the
Hazardous Response Unit (HRU).

      According to a USMS official, each of the 14 HRU team members is
trained as an Emergency Medical Technician for tactical situations, meaning
that HRU team members are armed and can enter dangerous situations to
treat victims. When HRU team members are faced with a threat, they
attempt to determine what is happening, where the threat has been
released, and how to treat the threat. In addition, HRU team members can
enter the threatened location immediately because they are armed. The
HRU team members are also hazardous material technicians. Most of the
HRU’s work involves two-person teams traveling to courthouses to survey
the courthouses’ disaster plans. The same USMS official asserted that no
other law enforcement organization is performing these kinds of surveys or
preparing to respond to chemical and biological attacks in this manner.

                                     - 34 -
       The HRU is currently staffed with 2 permanent staff members and 12
collateral duty members who split their time between the Eastern District of
Virginia and the HRU. We reviewed the timesheets of these 12 collateral
duty personnel to determine the amount of time spent on HRU duties versus
district duties. However, on the timesheets, duty at both the HRU and the
Eastern District of Virginia falls under the “Judicial Security” heading.
Because the timesheets do not list specific tasks under Judicial Security, we
were not able to determine the workload distribution.

       A listing of HRU operations, provided by the HRU, showed that the
HRU performed 31 operations from September 4, 2002, through June 28,
2003. These operations included protective sweeps, chemical and biological
monitoring, and sniper detail. Additionally, the HRU took part in 27
presentations and assessments from November 11, 2002, through July 10,
2003. These tasks included briefings, training of USMS deputies, and
chemical and biological awareness classes. Along with these operations,
each member of the HRU is expected to take 600 hours of training over the
fiscal year.

       According to a MBD official, the USMS did not prepare a Congressional
Relocation Report (CRR) for the opening of the CBOP or the HRU. The
official stated that the creation of the CBOP under the JSD supported the
judicial protection mission of the USMS and the JSD. The official asserted
that the USMS did not need to prepare a CRR at that time because the CBOP
was using pre-existing space at USMS Headquarters and the two personnel
positions were collateral duty assignments. The MBD official also stated
that, similarly, the USMS did not need to prepare a CRR when the CBOP
changed its name to the HRU because the 14 current staff members of the
HRU are still using pre-existing space at USMS Headquarters.

       JMD guidelines state that a CRR needs to be filed when there are:
1) new offices (physical space) to be opened; 2) offices proposed for closing;
3) office relocations from one Congressional district to another; or
4) expansion or relocation of central Headquarters of over 10,000 square
feet. To confirm the USMS’s interpretation of the guidelines, we contacted a
JMD official and explained the history of the CBOP and the HRU. The JMD
official stated that the USMS would not have had to file a CRR for the
following reasons: 1) the HRU was using existing space at Headquarters and
was not expanding or relocating Headquarters space of over 10,000 square
feet; 2) the HRU was a part of the USMS, and thus the HRU was not
reimbursing the USMS for the use of the space; and 3) the HRU did not



                                    - 35 -
move between Congressional districts or open another office in a new
Congressional district.

       A USMS official also stated that the USMS is working on establishing a
fugitive task force in Springfield, Virginia, that is comprised of the 12
collateral-duty HRU team members. These 12 people would split their time
between the HRU and the new task force, and no longer be assigned to the
Eastern District of Virginia. The USMS is planning to establish this task force
under authority it was granted in the Presidential Threat Protection Act of
20006, but also is preparing a request to DOJ to make the HRU a permanent
unit.

Foreign Offices

       In 1999, the USMS began implementing a plan to open foreign offices
in Mexico, Jamaica, and the Dominican Republic. According to USMS
officials, the Ambassadors to these countries and Attorney General Reno
requested the opening of these offices due to the large number of United
States fugitives in these countries. To staff these offices, the USMS placed
series 1811 criminal investigators, who were assigned to USMS districts, on
temporary duty, six-month rotations in these locations.

      However, in the FY 2002 Conference Report, Congress called for the
closing of these foreign offices after learning that the USMS had failed to file
a CRR. During our interviews, several USMS officials acknowledged that the
USMS’s opening of the offices without filing a CRR had been incorrect. The
USMS closed the foreign offices in December 2001. The criminal
investigators assigned to Jamaica and the Dominican Republic returned to
the United States in January 2002. The criminal investigators assigned to
Mexico returned to the United States in March 2002.

       Subsequently, in the FY 2003 Conference Report, Congress instructed
the USMS to open permanent foreign offices in Mexico, Jamaica, and the
Dominican Republic. The FY 2003 appropriation also included an additional
$1,715,000 of funding for these offices; however, USMS officials noted that
they were informed that this amount did not include funding for new
positions. Thus, when the foreign offices reopen, the USMS will staff the
offices with personnel reassigned from districts on a three-year basis with an
optional one-year extension. As of June 30, 2003, none of the foreign
offices are open; however, the USMS expects to have all three offices
reopened by the end of calendar year 2003.

      6
          The Presidential Protection Act of 2000 is P.L. 106-544.



                                             - 36 -
Reprogramming Activities

      According to MBD officials, the USMS neither requested nor initiated
reprogramming actions during FY 2002 or FY 2003.7 However, the USMS
sought to reprogram $9 million near the end of FY 2001 to cover a rent
shortfall. In addition, at the end of FY 2002, funds were transferred out of
various cost centers, including the Training Academy, to provide funds for
unfunded items in the FY 2002 budget. According to MBD officials, these
transfers did not require a reprogramming because of their low dollar
amounts and because they did not involve the transfer of funds among
decision units.

       However, as part of its authority, the USMS regularly realigns funds
among costs centers in order to compensate for unfunded items when
reprogramming authority is not required. After the Director selects the
programs to be funded, the MBD updates the list to indicate those programs
that were funded and those that remain unfunded. If a particular item did
not get funded after the mid-year review or if a new requirement arises, cost
centers may request funding during the third quarter review. As the end of
the fiscal year approaches, the “unfundeds” list is updated and forwarded to
the Director on almost a daily basis. For FY 2002, we reviewed
documentation of the budget reviews and determined that a total of
$24,321,343 was realigned to various cost centers to fund projects that
were not budgeted for, or not funded, at the beginning of the fiscal year. As
an example of an item that was funded through the unfundeds list, the BSD
received over $4,800,000 for the purchase of new vehicles at the end of
FY 2002. As an example of a source of funding for the unfundeds list,
$90,000 was transferred from the Training Academy’s account for use
towards unfunded programs at the end of FY 2002.




       7
         A reprogramming is the transfer of funds of funds between decision units, which
exceeds $500,000 or 10 percent of the total budget. The nine decision units at the USMS
are: 1) Protection of the Judicial Process, 2) Prisoner Transportation, 3) Fugitive
Apprehension, 4) Seized Assets Management, 5) D.C. Superior Court, 6) Service of Legal
Process, 7) Training Academy, 8) ADP and Telecommunications, and 9) Management and
Administration.



                                          - 37 -
                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine if the USMS executed its
approved budgets for FY 2002 and FY 2003 in accordance with Congressional
spending instructions. We conducted our audit in accordance with
Government Auditing Standards and included such tests as were considered
necessary to accomplish our objectives. Our audit concentrated on, but was
not limited to, FY 2002 and FY 2003.

      We reviewed listings of transactions obtained from the USMS STARS
accounting system and judgmentally selected transactions for review. We
did not perform testing to express an opinion on the STARS system, and
therefore we do not express an opinion on the system. However, as a part
of the annual financial statement audit for the USMS, the USMS financial
management systems are reviewed to determine their compliance with the
federal financial management systems requirements, applicable federal
accounting standards, and the United States General Ledger. These systems
were found to comply with these requirements for the FY 2002 financial
statement audit. Therefore, we believe that data used was adequate our
sampling and testing purposes.

       We obtained an understanding of the USMS’s budget execution
process by reviewing pertinent documents including the FY 2002 and 2003:
1) appropriations laws; 2) conference reports; 3) House reports; 4) Senate
reports; and 5) DOJ and OMB publications. We also reviewed the USMS’s
documentation of its allocations and obligations and relevant policy
memoranda. We conducted interviews with officials from various offices in
the USMS, including the MBD, the BSD, the CCMG, the ISD, the Office of
District Affairs, and the Office of the Director. Our fieldwork was performed
from June 2, 2003, through July 24, 2003, at the Arlington, Virginia offices
of the USMS. In all cases, our samples were judgmentally selected and
represented ten percent of the available universe.




                                    - 38 -
                          APPENDIX II

SAMPLE OF A COST MODULE




         - 39 -
                                                                       APPENDIX III

          APPROPRIATION AND CONFERENCE REPORT LANGUAGE

FY 2002 Spending Instructions8

1.    Salaries and Expenses

For necessary expenses of the United States Marshals Service, including the
acquisition, lease, maintenance, and operation of vehicles, and the purchase
of passenger motor vehicles for police-type use, without regard to the
general purchase price limitation for the current fiscal year, $619,429,000:

      Official Reception
      Of which not to exceed $6,000 shall be available for official reception
      and representation expenses;

      Prisoner Information System
      Of which not to exceed $4,000,000 shall be available for development,
      implementation, maintenance and support, and training for an
      automated prisoner information system shall remain available until
      expended;

      Special Operations Group
      $500,000 for Special Operations Group training, equipment, and
      facilities maintenance;

      Permanent Changes of Station
      $583,000 for permanent changes of station;

      Electronic Surveillance Unit
      [An increase] of $3,150,000 for Electronic Surveillance Unit personnel
      and equipment;

      East Coast/West Coast Task Forces
      [An increase of] $5,825,000 for the establishment of dedicated fugitive
      task forces on both coasts as proposed by the Senate;




      8
          The FY 2002 Appropriation Law is P.L. 107-77. The accompanying Conference
Report is House Report 107-278.



                                         - 40 -
Courthouse Security Personnel
[An increase] $3,625,000 for courthouse security personnel for
existing and new courthouses;

Prisoner Transportation
[An increase of] $1,451,000 for prisoner transportation;

Courthouse Security Equipment
For the costs of courthouse security equipment, including furnishings,
relocations, and telephone systems and cabling, $14,267,000, to
remain available until expended.




                             - 41 -
Funding for courthouse security equipment is provided as follows:


                                        Amount Allocated in
   Courthouse Security Equipment
                                         Conference Report

 Detainee Facilities
 Fort Smith, AR                                 $       200,000
 Denver, CO                                           1,090,000
 Washington, DC                                          75,000
 Jacksonville, FL                                     1,065,000
 Dublin, GA                                             432,000
 Moscow, ID                                              50,000
 Bowling Green, KY                                      330,000
 Bay City, MI                                           175,000
 Detroit, MI                                            450,000
 Cape Girardeau, MO                                      75,000
 East St. Louis, MO                                      10,000
 Greenville, MS                                         645,000
 Gulfport, MS                                           540,000
 Hattiesburg, MS                                        590,000
 Oxford, MS                                           1,095,000
 Newark, NJ                                             300,000
 Columbus, OH                                           300,000
 Muskogee, OK                                           920,000
 Aiken, SC                                              220,000
 Florence, SC                                           321,000
 Spartanburg, SC                                        555,000
 Columbia, SC                                           195,000
 Amarillo, TX                                           450,000
 Houston, TX                                          1,063,000
 Laredo, TX                                             700,000
 Waco, TX                                               423,000
 Cheyenne, WY                                           800,000
 Subtotal, Detainee Facilities                      13,069,000
 Minor Repair                                           375,000
 Engineering Services                                   643,000
 Security Survey                                        180,000
 Total, USMS Security Equipment                 $14,267,000


                             - 42 -
2.   Construction

For planning, constructing, renovating, equipping, and maintaining United
States Marshals Service prisoner-holding space in United States courthouses
and Federal buildings, including the renovation and expansion of prisoner
movement areas, elevators, and sallyports, $15,000,000 to remain available
until expended.

The conference agreement includes the following distribution of funds:




                                   - 43 -
                                              Per Conference
               Construction
                                                  Report
Construction
Hot Springs, AR                                $     1,328,000
Prescott, AZ                                           550,000
Grand Junction, CO                                     450,000
Davenport, IA                                          856,000
Sioux City, IA                                         100,000
Moscow, ID                                             200,000
Rock Island, IL                                      1,250,000
Rockford, IL                                            24,000
Springfield, IL                                         85,000
Bay City, MI                                           685,000
Flint, MI                                              248,000
Natchez, MS                                          1,000,000
Billings, MT                                           850,000
Raleigh, NC                                          2,446,000
Sante Fe, NM                                           500,000
New York, NY (40 Foley)                                250,000
Columbus, OH                                         1,000,000
Dayton, OH                                             150,000
Muskogee, OK                                           280,000
Sioux Falls, SD                                        680,000
Cheyenne, WY                                           200,000
Subtotal, Construction                              13,132,000
Planning, Design, & Relocation:
El Dorado, AR                                          100,000
Fayetteville, AR                                       100,000
El Centro, CA                                           32,000
Ocala, FL                                              475,000
Billings, MT                                           200,000
Wilmington, NC                                         125,000
Columbia, SC                                            46,000
Casper, WY                                             100,000
Subtotal, Planning, Design, & Relocation             1,178,000
Security Specialists/Construction Engineers            690,000
Total, Construction                                $15,000,000


                              - 44 -
3.    Federal Prisoner Detention

For expenses, related to United States prisoners in the custody of the United
States Marshals Service, but not including expenses otherwise provided for
in appropriations available to the Attorney General, $706,182,000, to remain
available until expended.

4.    Fees and Expense of Witnesses

For expenses, mileage, compensation, and per diems of witnesses, for
expenses of contracts for the procurement and supervision of expert
witnesses, for private counsel expenses, and for per diems in lieu of
subsistence, as authorized by law, including advances, $156,145,000, to
remain available until expended:

      Witness Safesites
      Of which not to exceed $6,000,000 may be made available for
      planning, construction, renovations, maintenance remodeling, and
      repair of buildings, and the purchase of equipment incident thereto, for
      protected witness safesites;

      Armored Vehicles
      Of which not to exceed $1,000,000 may be made available for the
      purchase and maintenance of armored vehicles for transportation of
      protected witnesses;

      Telecommunications Equipment
      Of which not to exceed $5,000,000 may be made available for the
      purchase, installation, and maintenance of secure telecommunications
      equipment and a secure automated information network to store and
      retrieve the identities and locations of protected witnesses.

5.    FY 2002 Supplemental9

For emergency expenses to respond to the September 11, 2001, terrorist
attacks on the United States, for “Salaries and Expenses, United States
Marshals Service”, $10,200,000, to remain available until expended, to be
obligated from amounts made available in Public Law 107-38:


      9
        The FY 2002 Supplemental appropriations law is P.L. 107-117. The accompanying
Conference Report is House Report 107-350.



                                        - 45 -
      Courthouse Security Equipment
      Of which $5,000,000 shall be for courthouse security equipment;

      Additional Protection at Trials
      $4,000,000 is provided for additional protection of the Federal
      Judiciary in New York City involved in the World Trade Center bombing
      and embassy bombing trials; and

      Courthouse Security Expenses
      $1,200,000 is for Foley Square and Brooklyn Federal courthouse
      security expenses.

      Construction
      For emergency expenses to respond to the September 11, 2001,
      terrorist attacks on the United States, for “Construction”, $9,125,000,
      to remain available until expended, to be obligated from amounts
      made available in Public Law 107-38. The Marshals Service is directed
      to apply this funding to the highest priority locations.

FY 2003 Spending Instructions10

1.    Salaries and Expenses

For necessary expenses of the United States Marshals Service, including the
acquisition, lease, maintenance, and operation of vehicles, and the purchase
of passenger motor vehicles for police-type use, without regard to the
general purchase price limitation for the current fiscal year, $680,474,000:

      106 Courthouse Security Positions
      Of which $15,800,000 shall be available for 106 supervisory deputy
      marshal positions for courthouse security;

      Official Reception
      Of which not to exceed $6,000 shall be available for official reception
      and representation expenses;

      Prisoner Information System
      Of which not to exceed $4,000,000 shall be available for development,
      implementation, maintenance and support, and training for an


      10
         The FY 2003 Appropriation Law is P.L. 108-7. The accompanying Conference Report
is House Report 108-010.



                                        - 46 -
automated prisoner information system shall remain available until
expended;

Courthouse Security Equipment
$12,061,000 shall be available for the costs of courthouse security
equipment, including furnishings, relocations, and telephone systems
and cabling, and shall remain available until expended;

Electronic Surveillance Unit Base Funding
$3,300,000 for Electronic Surveillance Unit recurring costs;

Hand/Leg Cuffs
$1,000,000 for hand/leg cuffs;

Special Assignments
$10,015,000 for special assignments;

Warrant Information Network
Not less than $2,766,000 . . . for the Warrant Information Network
and subscriptions to various networks and on-line systems;

40 Positions for Protection of the Judiciary
$5,650,000 for 40 additional personnel and equipment, as requested,
for the protection of the Judiciary for high threat trials;

18 Positions for High Priority Districts
$2,259,000 for 18 positions to be allocated to those districts with the
highest priority needs;

East Coast/West Coast Task Forces
$2,268,000 to fully annualize the two existing fugitive task forces;

Heartland Task Forces
$2,916,000 to establish two additional centrally-managed fugitive task
forces in the heartland;

Electronic Surveillance Unit
$2,750,000 for Electronic Surveillance Unit personnel, training, and
equipment;

Foreign Offices
[An increase] of $1,715,000 to establish a permanent Marshals Service
presence in Jamaica, the Dominican Republic, and Mexico;


                              - 47 -
     Vehicles
     [An increase] of $10,424,000 for vehicles.

2.   Construction

For planning, constructing, renovating, equipping, and maintaining United
States Marshals Service prisoner-holding space in United States courthouses
and Federal buildings, including the renovation and expansion of prisoner
movement areas, elevators, and sallyports, $15,126,000 to remain available
until expended.

3.   Fees and Expense of Witnesses

For expenses, mileage, compensation, and per diems of witnesses, for
expenses of contracts for the procurement and supervision of expert
witnesses, for private counsel expenses, and for per diems in lieu of
subsistence, as authorized by law, including advances, and for United States
Marshals Service Witness Security program expenses, $175,645,000, to
remain available until expended:

     Witness Safesites
     Of which not to exceed $6,000,000 may be made available for
     planning, construction, renovations, maintenance remodeling, and
     repair of buildings, and the purchase of equipment incident thereto, for
     protected witness safesites;

     Armored Vehicles
     Of which not to exceed $1,000,000 may be made available for the
     purchase and maintenance of armored vehicles for transportation of
     protected witnesses;

     Witness Security Program
     Of which not to exceed $19,500,000 may be made available for the
     United States Marshals Service Witness Security program;

     Telecommunications Equipment
     Of which not to exceed $5,000,000 may be made available for the
     purchase, installation, and maintenance of secure telecommunications
     equipment and a secure automated information network to store and
     retrieve the identities and locations of protected witnesses.




                                   - 48 -
4.    Wartime Supplemental11

For an additional amount for ‘Salaries and Expenses, United States Marshals
Service’ for necessary expenses, $8,000,000, to remain available until
September 30, 2004:

      High Priority Districts
      $5,800,000 to be allocated to those districts with the highest priority
      needs for the protection of the judicial process;

      Secure Communications Capability
      $2,200,000 to upgrade the Marshals Service secure communications
      capability.




      11
         The FY 2003 Wartime Supplemental law is P.L. 108-11. The accompanying
Conference Report is House Report 108-076.

                                       - 49 -
                                    APPENDIX IV

USMS RESPONSE TO THE DRAFT AUDIT REPORT




                 - 50 -
- 51 -
- 52 -
- 53 -
- 54 -
- 55 -
- 56 -
- 57 -
- 58 -
- 59 -
                                                                APPENDIX V

            OFFICE OF THE INSPECTOR GENERAL ACTIONS
                 NECESSARY TO CLOSE THE REPORT


      In its response to the draft audit report, the USMS agreed with two of
our three recommendations, but disagreed with many of our comments and
conclusions, stating that they were based on incomplete analysis,
contradictory statements, and inaccurate facts. Before we discuss the status
of each of the three recommendations, we respond to the general report
comments made by the USMS. The status of each recommendation and our
discussion of the USMS response to the recommendations will follow
thereafter.

      First, it is important that we clarify what we audited and what we did
not audit. The USMS response mistakenly focuses on its budget formulation
process rather than the budget execution process – the subject of our audit.
To reiterate, as we state in the Executive Summary:

            The objective of the audit was to determine if the
            USMS executed its appropriated budgets for FY 2002
            and FY 2003 in accordance with Congressional
            spending instructions.

      To accomplish this task, we relied on the FY 2002 and FY 2003
appropriation laws and the corresponding House, Senate, and conference
reports. We then focused our review on the Congressional spending
instructions contained in those reports and how the USMS executed its
budget in light of these instructions. Our audit was designed to examine
whether the USMS’s recorded expenditures were consistent with the
congressional instructions.

USMS Financial Statement Audit

      The USMS response cites the USMS Annual Financial Statement Audit
for FY 2002 (OIG Report No. 03-26), in which the USMS received an
unqualified opinion, as evidence that it is in compliance with congressional
spending instructions. However, the USMS’s reliance on this unqualified
opinion as an indication that it has followed Congressional spending
instructions is not valid because the purpose of the Financial Statement
Audit is to express an opinion only on the agency’s financial statements,
internal control, and compliance with certain provisions of laws and



                                    - 60 -
regulations. As we state on page 3 of the draft audit report on USMS budget
execution practices:
           We also reviewed the USMS’s Standard Form 133
           Reports on Budget Execution (SF-133) submitted to
           the Office of Management and Budget (OMB) for
           FY 2002 and FY 2003 to determine whether the
           USMS’s total spending in these years is within its
           total budget authority. In this regard we accepted
           the amounts reported on the SF-133s based on our
           reliance on the results in the Office of the Inspector
           General Audit Report Number 03-26, the United
           States Marshals Service Annual Financial Statement
           Audit, Fiscal Year 2002, July 2003, which resulted in
           an unqualified opinion.
      The financial statement auditors do not compare agency spending
against Congressional spending instructions when performing testing for the
financial statement audit. We relied on the auditors’ opinion in the FY 2002
Annual Financial Statement only to determine that the USMS did not exceed
its overall budget authority.

Cost Module

      The USMS objected to our use of the term “cost model” rather than
the term “cost module” in the report. However, in numerous interviews and
discussions with USMS personnel, the term cost model was used rather than
cost module. The cost module exists in budget formulation, which we did
not audit. Notwithstanding that fact, we will accept the terminology
suggested by USMS management and consequently have replaced all
references in the report to cost model with cost module.

Page ii

      The USMS response stated that it “is not re-organizing via
centralization” and that its use of zero-base budgeting in FY 2002 “is not an
annual process.” In addition, the USMS stated that starting in FY 2003 it
used project codes rather than cost centers and that neither project codes
nor cost centers “create workplans.” Although the USMS may not have
undertaken a formal plan to centralize spending and budget execution, as
noted in the report, the USMS has centralized spending in key areas at
Headquarters and has limited the authority of officials to transfer funds
between or among object classes or project codes. The MBD determines the
amount of the annual allocation the cost center (FY 2002) or project code
(FY 2003) will receive. Further, officials from the cost centers or project


                                   - 61 -
codes determine the amount of funding that will be spent in each quarter of
the fiscal year and, thus, those officials create the document entitled
“workplan.” We have clarified this point in the report and explained that the
USMS only used zero-base budgeting in FY 2002.

      The USMS also objected to our use of the term “account” when we
stated in the report that “districts previously could realign funds between
accounts without the approval of MBD officials.” The USMS stated that
“[t]he term ‘account’ is usually referred to in the same context as an
appropriation” and, in this sense, cost centers and project codes “never had
authority to move funding between accounts.” We have amended the audit
report to replace “accounts” with “project codes or object class.”

      The USMS response also stated, “the USMS has clearly demonstrated
and provided supporting documentation to the IG Audit Staff that funding
appropriated by Congress for specific purposes was fully allocated in
accordance with Congressional direction.” As detailed in the audit report,
however, the USMS could not demonstrate that budgeted funds were
expended in accordance with specific congressional instructions. The USMS
could not provide either accounting records or a management information
system report supported by accounting records that demonstrated expenses
incurred were for the specific purpose described in the spending instructions.
By not being able to provide independently verifiable records of expenditures
for the specific purposes cited in the congressional spending instructions, the
USMS could not show that it had expended its funds in accord with specific
congressional directives contained in appropriation laws and committee
reports. We have amended the audit report to clarify that while the USMS
was able to demonstrate allocation of funding in accordance with
congressional spending instructions, it could not demonstrate that funds
were expended in accordance with congressional spending instructions

Page iii

      In our audit report we state that the USMS could not demonstrate its
adherence to the congressional spending instructions in FY 2002 and
FY 2003. The USMS response stated that it “strongly opposed” our use of
the term “deficiency” and stated that its system “identifies funding for every
program office” in accordance with “approved cost modules.” In addition,
the USMS stated that it has an “additional internal control . . . to
systematically document every allocation change made in STARS.” This
additional internal control, which we considered to be ineffective, is a Lotus
Notes spreadsheet used by the USMS to track budget allocations. We found
that the USMS was generally able to demonstrate its allocation of funds;
however, it often was unable to demonstrate the obligation and expenditure

                                    - 62 -
of these funds in accordance with Congressional intent. In our opinion,
because the USMS cannot clearly demonstrate obligation and expenditure of
these funds they cannot give assurance that the funds were spent in
accordance with congressional spending instructions.

      The USMS also disagreed with our continued assertion that the
“USMS records do not document that certain funds were expended to the
purpose intended by Congress," and noted that “this statement appears to
be associated with an incomplete analysis.” We do not concur that our
review was based on an incomplete analysis. Our analysis was thorough
and, throughout the audit, we worked closely with MBD staff when
analyzing worksheets and reports that were provided to us. We have
provided the details of the budget execution process as gathered from the
USMS and disclosed our analyses in the report. We attempted to match
expenditures against what Congress specified in spending instructions but
were unable to do so. Similarly, the USMS could not do so. As a result,
we concluded that USMS records do not document that certain funds were
expended for the purpose intended by Congress. The specific spending
instructions and expenditures are identified on pages 8 and 19 of the
report. Our detailed analysis regarding this process appears in the body of
the report.

Page iv

      In its response, the USMS provided additional information about its
use of cost modules and the circumstances surrounding its $3,150,000
program increase for the ESU in FY 2002. The USMS stated that it “allocated
the entire program increase as Congress intended, and to imply that the
funding was not allocated in support of ESU is incorrect.” In addition, the
USMS stated that “[t]o conclude that the cost module understated the
funding for 9 ESU vehicles is factually incorrect.”

      We found that the USMS allocated the entire program increase in
support of the ESU as detailed in the body of the report. However, based on
our review of the BSD records, we found that while the BSD spent about
$28,985 per vehicle for the 9 ESU vehicles, the cost module allocated only
about $25,376 per vehicle. Therefore, we concluded that the BSD was
required to compensate for this difference. We stand behind this statement
and our conclusion that the USMS cannot track expenditures to ensure that
the vehicles line item, as well as other line items in the cost module, remains
accurate.

       The USMS also stated that it “does trace expenditures to
corresponding allocations by project code,” but “does not trace by each
individual program increase.” The USMS stated it “will comply with any

                                    - 63 -
additional JMD guidance issued to all components on this issue.” As noted
previously, we found the USMS was generally able to demonstrate the
allocation of funds; however, it often was unable to demonstrate the
obligation and expenditure of these funds in accordance with congressional
intent. To its credit in September 2002 the USMS Comptroller issued a
memorandum to the USMS Headquarters Senior Staff and USMS District
Offices incorporating changes to the USMS financial management and
budget allocation approach for FY 2003. The memorandum implemented the
use of project codes to enhance the ability of the USMS to trace
expenditures to the corresponding budget allocations. In our audit report
we noted that the use of project codes would help link budget allocations to
expenditures, but the use of project codes would not track expenditures
across cost centers. Consequently, we stand behind our recommendation
that the USMS develop a budget execution system that will allow all
expenditures to be traced to corresponding allocations

       The USMS asserted that adding additional project codes to track the
specific expenses associated with the cost module portion of program
increases is not an efficient use of staff resources or the accounting system.
The USMS also disagreed with our statement that, "the USMS needs to
implement a methodology for tracking expenditures to cost module
estimates in order to demonstrate to Congress that it is adhering to its
spending instructions. The USMS believes that it has fully complied with
established guidelines with regard to budget execution of appropriated
funding.” However, we found that the USMS could not demonstrate that
the funds provided by Congress in response to the cost module were used
for the specific purposes in the estimates. Therefore, we reassert that the
USMS needs to implement a methodology for tracking expenditures to cost
module estimates in order to demonstrate to Congress that it is adhering to
its spending instructions.

Pages iv-v

      In our draft report, we recommended that the USMS develop a
vehicle replacement plan to ensure that the USMS motor vehicle fleet is
brought into, and then remains, in compliance with the GSA mileage
requirements. In its response, the USMS said it “agrees with the value of
having a vehicle replacement Plan,” but “does not agree to develop a plan
that meets the GSA standard of 3 years and 60,000 miles.” The USMS
stated that the “GSA does not provide the funding to implement a plan to
these standards,” and that “a standard of 4 years and 80,000 miles
provides adequate value for a vehicle replacement plan.” Based on the
USMS’s response to the draft report, and additional information obtained on
the GSA vehicle replacement criteria, we have modified our
recommendation to read that the USMS develop and implement a formal

                                    - 64 -
motor vehicle replacement policy that includes replacement criteria such as
vehicle age and mileage.

Page v

       The USMS stated that it “has not received appropriated funding
specifically for JDIS,” and that the JDIS “funding was to be identified after
all other requirements have been met.” In addition, the USMS asserted
that it “has operated fully within the ‘umbrella’ of Congressional expectation
and intent.” In our review of the FY 2002 and FY 2003 appropriation laws
and conference reports, we could not identify language that specified that
the JDIS should be funded “after all other requirements have been met,” or
that this appropriation should be treated differently than any other USMS
“no-year” appropriations.

      The USMS also asserted that our report inaccurately stated that the
USMS assigned a vehicle to the Deputy Director that was purchased with
FY 2002 funds. As noted on page six of the USMS’s response, the USMS
stated that it “employs an additional internal control that is used to
systematically document every allocation change made in STARS.” This
additional internal control is a Lotus Notes spreadsheet that the USMS
maintains to track budget allocations. We based our report comment on the
following entry from the spreadsheet:

                                    Type of      Current Amount
 FY    Directorate   Start Date     Funding         Available     Description
                                                                  Funding for
                                    Direct One                    Director/DD
FY02                 1/25/2002                     $56,268.00
                                       Time                         Vehicles

      Based on our review of this document, the Deputy Director’s vehicle
was purchased with FY 2002 funds. Any inaccuracy in this statement is the
result of an inaccuracy in the USMS’s records and a weakness in the
additional internal control referred to by the USMS.




                                    - 65 -
Summary

      We focused our review on the Congressional spending instructions
contained in the FY 2002 and FY 2003 appropriation laws and the
corresponding House, Senate, and conference reports, and how the USMS
executed its budget in light of these instructions. Based on comments
provided by the USMS in its response to the draft audit report and additional
information obtained, we made some revisions to the final report including
modifying our recommendation for the USMS motor vehicle fleet. We found
that while the USMS was able to demonstrate its allocation of funds, it could
not demonstrate that funds were expended in accordance with congressional
intent. Specifically, it could not provide either accounting records, or a
management information system report supported by accounting records,
that demonstrated obligations and expenditure of funds for the specific
purposes described in the spending instructions. By not being able to
provide independently verifiable records of expenditures for the specific
purposes cited in the congressional spending instructions, the USMS could
not show that it had expended its funds in accordance with specific
congressional instructions contained in the FY 2002 and FY 2003
appropriation laws and committee reports. Therefore, we concluded that the
USMS needed to improve its budget execution process in order to
demonstrate more clearly that budgeted funds are executed in accordance
with Congressional intent.

Status of Recommendations

1.    Unresolved. The USMS disagreed with our recommendation that it
develop a budget execution system that tracks changes, obligations, and
expenditures to the budget estimates included in congressional spending
instructions. Further, in its response, the USMS stated, “it is inaccurate to
assert, ‘the USMS can’t clearly demonstrate that budgeted funds are
allocated in accordance with Congressional intent’.” As noted previously, the
USMS generally was able to demonstrate the allocation of funds; however, it
often was unable to demonstrate the obligation and expenditure of these
funds in accordance with congressional intent. Specifically, the USMS could
not provide accounting records identifying the obligations or expenditures.
We have amended the audit report to clarify this point.

       The USMS also stated that it has not pursued the establishment of a
budget execution system that tracks specific increments of funding because
it has not received direction to do so from the DOJ, the OMB, or Congress.
The USMS asserted that establishing such a system without direction “would
create a significant administrative burden on both financial and program

                                   - 66 -
office staffs, and would be of questionable benefit.” However, due to
congressional interest in the USMS’s budget execution process, the OIG
believes that the USMS needs to develop a budget execution system that will
track changes, obligations, and expenditures to budget estimates to resolve
and close this recommendation.

2.    Resolved. The USMS agreed with our recommendation to reexamine
its annual congressional request of $4 million for JDIS, in light of the USMS’s
record of not allocating more than $5.5 million of the available $28 million of
these funds over the past seven years. We consider this responsive to the
intent of the recommendation. To close this recommendation, the USMS
needs to provide the OIG with documentation showing the status of the JDIS
project and projected spending requirements for completion.

3.    Resolved. To close this recommendation, the USMS needs to
provide the OIG with documentation that it has implemented a vehicle
replacement policy.




                                    - 67 -
